SEPTEMBER 27, 2012
  AUDIT REPORT




                                                      OFFICE OF AUDITS




         NASA’S CHALLENGES TO MEETING
     COST, SCHEDULE, AND PERFORMANCE GOALS




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-12-021 (ASSIGNMENT NO. A-11-009-00)
SEPTEMBER 27, 2012




  MESSAGE FROM THE INSPECTOR GENERAL

  Over its 50-year history, NASA has been at the forefront of science and space exploration
  and is justifiably proud of its numerous scientific discoveries and technological
  innovations. However, many NASA projects cost significantly more to complete and
  take much longer to launch than originally promised. In this era of constrained Federal
  budgets, NASA’s ability to deliver projects on time and within budget is more important
  than ever if the Agency is to maintain a robust portfolio of science and space projects.

  This report examines NASA’s project management practices to better understand the
  Agency’s challenges to achieving its cost, schedule, and performance goals. In
  conducting this review, we interviewed 85 individuals, including the Administrator,
  Deputy Administrator, Associate Administrators, Center Directors, project managers,
  project staff, former NASA Administrators and staff, and external parties. We also
  solicited input from other NASA employees through an internal Agency blog. The
  findings we present in this report are primarily based on our analysis of the input we
  received and additional information from previous studies conducted by NASA, our
  office, the Government Accountability Office, and other organizations.

  Although we make no formal recommendations in this report, we offer our analysis of
  each of four major challenges and, in some cases, note actions the Agency may wish to
  consider to help improve project management.

  Each of the challenges identified in this report would benefit from a more comprehensive
  review. Accordingly, we plan to conduct future audit work in these areas to more closely
  examine them and offer recommendations for management action.


  Final report released by:




  Paul K. Martin
  Inspector General




REPORT NO. IG-12-021
Acronyms

EVM     Earned Value Management
FY      Fiscal Year
GAO     Government Accountability Office
GPM     Global Precipitation Measurement
GRAIL   Gravity Recovery and Interior Laboratory
ISS     International Space Station
JCL     Joint Cost and Schedule Confidence Level
JPL     Jet Propulsion Laboratory
JWST    James Webb Space Telescope
KDP     Key Decision Point
LDCM    Landsat Data Continuity Mission
MER     Mars Exploration Rover
MSL     Mars Science Laboratory
NPD     NASA Policy Directive
NPR     NASA Procedural Requirements
OIG     Office of Inspector General
PDR     Preliminary Design Review


                                                   REPORT NO. IG-12-021
SEPTEMBER 27, 2012




                                                                                  OVERVIEW

    NASA’S CHALLENGES TO MEETING COST, SCHEDULE, AND
                  PERFORMANCE GOALS

                                                                                    The Issue

  NASA is an Agency with a unique mission that requires leadership, innovation, and
  creativity to achieve one-of-a-kind, first-of-their-kind technological and scientific
  advances. Over its 50-year history, NASA has been at the forefront of science and space
  exploration and responsible for numerous scientific discoveries and technological
  innovations. For example, since its launch in 1990 the Hubble Space Telescope has
  helped scientists determine the age of the universe, identify quasars, and prove the
  existence of dark energy. Hubble’s successor, the James Webb Space Telescope (JWST),
  currently scheduled to launch in 2018, will study the birth and evolution of galaxies while
  the Mars Science Laboratory (MSL), which successfully landed its Curiosity rover on
  August 6, 2012, will assess whether the Red Planet is or has ever been able to support life
  (see Figure 1).

  Figure 1. Curiosity as it descends to the surface of Mars (left) and composite photo of Curiosity
  looking out over the Martian surface (right).




  Source: NASA


  Unfortunately, in addition to their scientific accomplishments, these and many other
  NASA projects share another less positive trait – they cost significantly more to complete
  and took longer to launch than originally promised. For example, in 1977 NASA
  estimated that it would complete development of Hubble in 1983 at a total cost of
  $200 million; however, the telescope was not completed until 2 years later at a cost of
  approximately $1.2 billion. More recently, MSL launched 2 years behind schedule with


REPORT NO. IG-12-021
                                                                                                   OVERVIEW



     development costs that increased 83 percent, from $969 million to $1.77 billion.
     Similarly, in 2009 NASA estimated JWST would cost $2.6 billion to develop and launch
     in 2014; however, it is now projected to cost $6.2 billion to develop and launch in 2018.

     Cost increases and schedule delays on NASA’s projects are long-standing issues for the
     Agency. A 2004 Congressional Budget Office study compared the initial and revised
     budgets of 72 NASA projects between 1977 and 2000.1 The initial budgets for
     these projects totaled $41.1 billion, while their revised budgets totaled $66.3 billion, a 61
     percent increase. Moreover, since its first annual assessment of NASA projects in 2009,
     the Government Accountability Office (GAO) has consistently reported on cost growth
     and schedule delays in the Agency’s major projects. For example, in its 2012 assessment
     GAO reported an average development cost growth of approximately 47 percent, or
     $315 million, much of which was attributable to JWST. As GAO noted, cost and
     schedule increases on large projects like JWST can have a cascading effect on NASA’s
     entire portfolio.

     As the President and the Congress work to reduce Federal spending and lower the
     Nation’s budget deficit, NASA’s ability to deliver projects on time and within budget is
     more important than ever. Like most Federal agencies, NASA faces constrained budgets
     for the foreseeable future. Moreover, the Agency has received a diminishing proportion
     of the Federal budget – currently about 0.5 percent of the budget compared to a high of
     4.4 percent in 1966 – and its annual funding adjusted for inflation is less than it was in
     1994.

     In addition to the challenging fiscal environment, NASA is at a historic crossroad with
     respect to the direction of its major programs. With the Space Shuttle Program ending
     after a 39-year history (Figure 2) and as a new and somewhat undefined path toward
     human space exploration commences, the Agency is undergoing considerable changes in
     mission focus. Despite the Agency’s substantial achievements over the past 50 years, the
     ability to manage science and space exploration projects that meet their intended cost,
     schedule, and performance goals remains elusive. Collectively, these factors both
     necessitate and provide an opportunity for the Agency to reset itself and take positive
     steps toward improving program and project management.




     1
         “A Budgetary Analysis of NASA’s New Vision for Space Exploration,” September 2004. Available at
         http://www.cbo.gov/sites/default/files/cbofiles/ftpdocs/57xx/doc5772/09-02-nasa.pdf (accessed
         August 24, 2012).



ii                                                                                   REPORT NO. IG-12-021
OVERVIEW



  Figure 2. The Space Shuttle era ended on July 21, 2011, when Atlantis landed in the early
  morning hours at Kennedy Space Center in Florida.




  Source: NASA

  We initiated this review to gain a better understanding of the major challenges NASA
  project managers face in carrying out their duties. The core of our fact-finding consisted
  of interviews of 85 individuals from both inside and outside of the Agency, including the
  current and former Administrators, Associate Administrators, Center Directors, and
  project managers and staff. In addition, we solicited input from the greater NASA
  population via a blog.2 The findings we present in this report are derived primarily from
  our analysis of the information we received from these sources, as well as additional
  information we gathered from reports and studies previously completed by NASA, our
  office, GAO, and other organizations. We anticipate conducting additional work in the
  future that more closely examines the challenges we identified and offers specific
  recommendations for management action. Details of our scope and methodology can be
  found in Appendix A.




  2
      The Office of Inspector General blog was available on the NASA website from September 15, 2011,
      through October 20, 2011.



REPORT NO. IG-12-021                                                                                    iii
                                                                                        OVERVIEW



     Results

     Multiple factors underlie NASA’s historical inability to consistently meet project cost,
     schedule, and performance goals. However, based on our interviews with 85 individuals
     involved in all levels of project development, we identified four factors that appear to
     present the greatest challenges to successful project outcomes.

     First, a culture of optimism permeates every aspect of NASA. While essential to
     producing the types of unique spaceflight projects NASA undertakes, this optimistic
     culture may also lead managers to overestimate their ability to overcome the risks
     inherent in delivering such projects within available funding constraints. This, in turn,
     can lead to the development of unrealistic cost and schedule estimates. Second, project
     managers indicated that the technological complexity inherent in most NASA projects
     makes it particularly challenging to meet cost and schedule goals. Third, project
     managers stated that they routinely struggle to execute projects in the face of unstable
     funding, both in terms of the total amount of funds dedicated to a project and the timing
     of when those funds are disbursed to the project. Both forms of funding instability can
     result in inefficient management practices that contribute to poor cost, schedule, and
     performance outcomes. Finally, interviewees expressed the belief that hands-on
     experience is the most important factor in the development of a project manager but
     noted a decrease in the number of smaller projects on which aspiring managers can gain
     this experience. They also expressed concern about a declining number of Agency
     personnel with development experience and whether NASA can continue to attract
     technical talent.

     These challenges represent real and continuing threats to NASA’s ability to complete
     projects on time and within budget. Although NASA has taken some positive steps to
     improve project outcomes, enhanced effort and strong leadership will be required to
     accomplish meaningful change. In our judgment, clear and consistent leadership by the
     President, Congress, and NASA management is an essential first step toward ensuring
     project managers are well positioned to complete projects within cost, schedule, and
     performance estimates. NASA leaders must temper the Agency’s culture of optimism by
     demanding realistic cost and schedule estimates, well-defined and stable requirements,
     and mature technologies early in development. They must also ensure that funding is
     phased appropriately, funding instability is identified as a risk, and project managers are
     appropriately rewarded and held accountable for meeting project cost and schedule goals.

     We discuss each of the four main challenges below in more detail.

     NASA’s Culture of Optimism. It was clear from our interviews that a culture of
     optimism and a can-do spirit permeate all levels of NASA, from senior management to
     front-line engineers. According to project managers, this culture is essential to
     overcoming the extraordinary technological challenges inherent in the development of
     unique, first-of-their-kind space systems. However, this same optimism can sometimes
     prevent managers and leaders from making critical assessments of requirements, budgets,


iv                                                                          REPORT NO. IG-12-021
OVERVIEW



  and schedules to determine what a project can realistically accomplish within a set budget
  and timetable. To this point, when asked whether their projects had been successful,
  every project manager we interviewed answered in the affirmative, regardless of the
  project’s fidelity to cost and schedule goals.

  From our discussions with senior NASA officials and project managers, we identified
  three related ways in which optimism contributes to cost and schedule challenges. First,
  the mindset has manifested itself in a lack of documented success criteria for cost and
  schedule performance in NASA projects. We reviewed plans for seven NASA projects
  and found that while success criteria for each were clearly defined in terms of technical
  requirements, none contained any success measures related to cost and schedule
  performance.

  Second, NASA’s culture of optimism appears to increase the difficulty of developing and
  maintaining realistic cost estimates. Many interviewees indicated that project managers
  and senior NASA leaders are often hesitant to admit they cannot overcome technological
  challenges or meet mission requirements within the funding profile provided.

  For example, NASA initiated the MSL mission soon after the successful development
  and landing of the Mars Exploration Rovers (MERs) (see Figure 3).3 Senior managers
  from those projects transitioned into the MSL Project and managed the new project in
  accordance with the “MER culture”
  of success. Program officials told us     Figure 3. Artist concept of a Mars Exploration
  that this attitude contributed to senior  Rover on Mars.
  managers accepting overly optimistic
  cost and schedule estimates generated
  by MSL Project personnel and
  placing less credence on independent
  assessments suggesting the Project
  would need additional funds and
  more time to overcome technical
  challenges. Ultimately, the MSL
  Project missed its first launch window
  in 2009 and experienced a 2-year
  launch delay, which significantly
  contributed to a life-cycle cost
  increase of $900 million.4
                                                    Source: NASA




  3
      The Mars Exploration Rovers – Spirit and Opportunity – were launched in June and July 2003,
       respectively, and landed on Mars in January 2004.
  4
      Due to planetary alignment, the optimal launch window for a mission to Mars occurs every 26 months.
      MSL was scheduled to launch in a window between September and October 2009. However, in February
      2009, because of the late delivery of several critical components and instruments, NASA delayed the
      launch to November 2011.



REPORT NO. IG-12-021                                                                                        v
                                                                                                         OVERVIEW



     Finally, many project managers we spoke with mentioned the “Hubble Psychology” –
     an expectation among NASA personnel that projects that fail to meet cost and schedule
     goals will receive additional funding and that subsequent scientific and technological
     success will overshadow any budgetary and schedule problems.5 They pointed out that
     although Hubble greatly exceeded its original budget, launched years after promised, and
     suffered a significant technological problem that required costly repair missions, the
     telescope is now generally viewed as a national treasure and its initial cost and
     performance issues have largely been forgotten.

     An optimistic organizational culture is essential to producing the highly complex and
     unique missions for which NASA is known. However, if not properly tempered this
     culture can lead managers to underestimate the amount of time and money it will take to
     overcome the significant technical challenges inherent in many NASA projects.
     Nurturing the optimism needed to successfully produce an MSL or JWST while guarding
     against overly optimistic cost and schedule estimates is an ongoing challenge for NASA
     that will require Agency leaders to review project requirements, budgets, and schedules
     with a critical eye and find ways to reward project managers who demonstrate successful
     stewardship of NASA’s limited resources.

     Underestimating Technical Complexity Increases Cost and Schedule Risk. Project
     managers cited the technical complexity inherent in most NASA projects as a major
     challenge to achieving cost and schedule goals. Five factors explain the inherently
     uncertain nature of estimating costs for the types of space technologies NASA develops.
     First, because NASA projects often involve technologies that are new and unique, many
     development efforts do not have readily available historical data, cost models, lessons
     learned, and other information project managers can use to estimate the effort needed to
     develop the required technologies. Second, NASA projects often involve combining
     several interdependent technologies to accomplish novel missions, and the resulting
     complexities are often difficult to predict. Third, NASA systems generally require more
     testing than other development efforts because, unlike land-based systems, they function
     remotely in space where repair or replacement is extremely difficult or impossible.
     Fourth, because space systems are often one-of-a-kind instruments, NASA cannot
     produce them in sufficient quantities to benefit from manufacturing economies of scale
     where the average cost of a product decreases as quantity increases.6 Lastly, according to
     many of the interviewees, the quality and availability of parts and instruments procured
     from some contractors has decreased over time. This affects managers’ ability to
     estimate project costs accurately because a part’s poor quality may not be evident until
     testing has begun, resulting in the need for costly rework or identifying alternative
     suppliers late in development.


     5
         While not attributable to a particular individual, the term “Hubble Psychology” is well known and used
         extensively throughout NASA.
     6
         Economies of scale are factors that cause the average cost of producing something to decrease as the
         quantity increase, as each additional unit takes on a share of the startup costs.



vi                                                                                         REPORT NO. IG-12-021
OVERVIEW



  We acknowledge that space development projects are technically complex and their
  development costs difficult to assess accurately at the implementation stage of a project’s
  life cycle when managers are required to produce cost and schedule estimates against
  which their projects will be measured.7 Nonetheless, in our judgment NASA can take
  steps to increase the likelihood that its projects will meet cost and schedule goals.
  Specifically, few projects should proceed to implementation unless requirements are
  well-defined and stable and the available resources – mature technologies, schedule, and
  funding – are set.8 In addition, critical technologies should be matured to the point where
  a prototype that closely approximates form, fit, and function requirements is
  demonstrated in a relevant environment. Finally, adequate funding should be available to
  meet the project’s requirements and account for its technical risks.

  Funding Instability Can Lead to Inefficient Management Practices. Nearly
  75 percent of the individuals we interviewed stated that funding instability was among
  the most significant challenges to project management.9 Funding instability includes
  situations in which a project receives less money than planned or funds are disbursed on a
  schedule different than planned.

  Funding instability can result in inefficient management practices that contribute to poor
  cost, schedule, and performance outcomes. For example, inadequate funding in the early
  phases of a project’s life cycle decreases management’s ability to identify and address
  key risks at project inception. Moreover, in the absence of sufficient funding, project
  managers may have to defer the development of critical technologies to a time when
  integration of those technologies may be more difficult or when the costs of material and
  labor may be greater. In some cases, shifting tasks to later project phases may require
  managers to sustain a workforce longer than originally planned or add shifts in an attempt
  to make up for lost time, both of which can lead to increased costs. For example, an
  independent review of the JWST Project noted that deferred work can potentially result
  in overall costs doubling or tripling due to its impact on other work.10



  7
      NASA divides the life cycle of its spaceflight projects into two major phases – formulation and
      implementation. Formulation is the period in which Agency personnel, among other tasks, identify how a
      project supports the Agency’s strategic needs, goals, and objectives; assess feasibility, technology,
      concepts, and risk; build teams; develop operations concepts and acquisition strategies; establish high-
      level requirements and success criteria. The implementation phase is the period in which personnel
      execute approved plans for the development and operation of the project and use control systems to
      ensure conformance to those plans and continued alignment with the Agency’s strategic needs, goals, and
      objectives.
  8
      GAO’s studies of best practice organizations show the risks inherent in NASA’s work can be mitigated by
      developing a solid, executable business case before committing resources to a new product development.
      This is evidence that (1) the customer’s needs are valid and can best be met with the chosen concept, and
      (2) the chosen concept can be developed and produced within existing resources – that is, proven
      technologies, design knowledge, adequate funding, and adequate time to deliver the product when
      needed. See GAO, “NASA: Assessments of Large-Scale Projects,” (GAO-10-227SP, February 1, 2010).
  9
      In addition, 75 blog comments cited funding instability as a challenge to project management.
  10
       JWST Independent Comprehensive Review Panel Final Report, October 29, 2010.



REPORT NO. IG-12-021                                                                                              vii
                                                                                           OVERVIEW



       Interviewees noted that funding instability originates primarily from two sources:
       external decisions made by the President and Congress and internal decisions made by
       Agency personnel. According to interviewees, shifting space policy priorities from the
       President and Congress and the vagaries of the annual appropriations process are major
       challenges to project management. For example, NASA transitioned from the Space
       Shuttle Program to the Constellation Program to the new Space Launch System Program
       in just 6 years. Moreover, since 1959 NASA has received its annual appropriation at the
       start of the new fiscal year only seven times, resulting in weeks- or months-long
       continuing resolutions that generally set funding at the prior year’s level. Although it is
       difficult to quantify the cost and schedule impacts to individual projects, many
       interviewees said starting the fiscal year without an approved budget can force project
       managers to delay work, limits the Agency’s ability to make necessary program changes,
       and prevents the Agency from beginning new projects.

       While external factors may contribute to funding instability, internal Agency decisions
       also play a significant role. For example, if the Agency withholds or delays funding from
       a project, managers must adapt to a more restrictive funding profile and re-plan work.
       This often means moving tasks such as maturing critical technologies and reducing other
       risks into the future, which can lead to cost and schedule increases.

       Moreover, interviewees stated that when highly visible flagship missions such as the
       Constellation Program or JWST experience significant cost growth, NASA leadership
       often takes funds from the budgets of other program areas to cover those increased costs.
       This not only makes it difficult for the managers of the projects that lose funds, but also
       has a ripple effect that increases the difficulty of managing the Agency’s overall
       portfolio.

       Funding instability has been a long-standing feature of the Federal budget and Agency
       processes, and given the current fiscal environment is likely to become even more
       common in the future. We believe that NASA management should increase its efforts to
       determine the extent to which funding instability impacts NASA projects and clarify the
       cause and effect relationship between funding instability and project cost increases,
       schedule delays, and performance problems. Addressing these issues could better
       facilitate the development of effective risk mitigation plans for managing fiscal
       disruptions.

       Limited Opportunities for Project Managers’ Development. Interviewees identified a
       number of emerging issues that could affect NASA’s ability to manage its projects
       effectively in the future. First, most project managers and senior officials we spoke with
       said that experience and on-the-job training were keys to a project manager’s ability to
       manage cost, schedule, and performance goals. However, they expressed concern that as
       the number of large flagship missions has increased, NASA no longer has enough small
       missions to provide a training ground for new project managers. Project managers
       described NASA’s small projects as invaluable for developing management skills and
       learning the key elements of project management, including understanding and managing



viii                                                                          REPORT NO. IG-12-021
OVERVIEW



  cost, schedule, and performance elements and making appropriate trade-offs among these
  elements when necessary.

  Interviewees also expressed concern about a lack of in-house development experience.
  Some expressed the view that as NASA has increasingly relied on contractors to support
  project development, the Agency’s in-house capabilities have declined. Moreover, they
  expressed concern that because NASA contracts the majority of its hardware and
  software development efforts to private industry, NASA engineers spend most of their
  time overseeing contractor efforts rather than building spaceflight components. These
  interviewees believe that as a result NASA engineers have limited opportunities to gain
  practical “hands-on” experience.

  Finally, some interviewees fear that NASA will not be able to attract and retain recent
  graduates or experienced engineers who are seeking opportunities to design and build
  hardware and software and integrate systems. The concern is that these individuals will
  instead choose positions in private industry and that as experienced engineers retire,
  NASA will lose these core competencies.

  To overcome the challenges identified in this report, it is critical that NASA continue to
  attract and retain high-quality project managers, adequately train and nurture these
  individuals, and provide them with ample opportunities to hone their skills.

                                                                                            Conclusion

  Over its more than 50-year existence, NASA has made significant achievements
  exploring space, helping understand Earth’s environment, and conducting fundamental
  aeronautics research. However, consistently managing the Agency’s science and space
  exploration projects to meet cost, schedule, and performance goals has remained elusive.
  Given the anticipated funding challenges for all Federal agencies in the years ahead,
  changes to the way NASA develops and manages its projects are imperative. At the same
  time, the Agency is undergoing considerable changes in mission focus, with the end of
  the Space Shuttle Program and the first steps on a new path toward human space
  exploration. Collectively, these factors both necessitate and provide an opportunity for
  the Agency to reset itself and take steps toward meaningful change in the way projects
  are developed and managed.

  To its credit, NASA has taken several steps in the last few years aimed at curbing cost
  growth and schedule delays, and the Agency has pointed to some early indications of
  improved cost and schedule performance for recent projects like the Gravity Recovery
  and Interior Laboratory, Juno, and Mars Atmosphere and Volatile Evolution missions.11

  11
       The Gravity Recovery and Interior Laboratory mission launched on September 10, 2011, to study the
       Moon’s interior. Juno launched on August 5, 2011, to investigate the origin and evolution of Jupiter and
       is scheduled to arrive at the planet in July 2016. The Mars Atmosphere and Volatile Evolution mission is
       scheduled to launch in late 2013 to investigate the Martian atmosphere.



REPORT NO. IG-12-021                                                                                              ix
                                                                                          OVERVIEW



    Nevertheless, in our judgment NASA needs a “unity of effort” – strong, consistent, and
    sustained leadership by the President, Congress, and NASA management – to meet the
    challenges outlined in this report and achieve more consistent fidelity to cost and
    performance goals. Articulating a clear, unified, and sustaining vision for the Agency
    and then providing the necessary resources to execute that vision is a critical cornerstone
    of success. For their part, NASA leaders must temper the Agency’s culture of optimism
    by requiring realistic cost and schedule estimates, well-defined and stable requirements,
    and mature technologies early in project development. In addition, to the extent possible
    they must ensure that funding is adequate and properly phased and that funding
    instability is identified as a risk and accounted for in risk mitigation strategies. Finally,
    they must be willing to take remedial action when these critical elements are not present.

    Although technological innovation and mission success as defined by scientific
    advancement and discovery are central to NASA’s core existence, an appropriate balance
    must be struck that also recognizes the importance of meeting project cost and schedule
    goals. Accordingly, we believe that NASA needs to find ways to reward managers for
    good stewardship of NASA’s resources as enthusiastically as it does for successful
    technological achievements and to hold managers appropriately accountable for
    mismanagement of resources. With renewed focus on and appropriate recognition of
    technical, cost, and schedule risks and rewards, NASA project managers will be better
    positioned to meet the performance goals expected by Congress and the U.S. taxpayer.

    Management’s Response

    In response to a draft of this report, NASA generally concurred with the challenges we
    outlined and stated that the Agency has implemented a number of performance
    improvement actions. Specifically, the Chief Engineer pointed to an increased
    management focus during the formulation phase, the application of joint confidence
    levels, and a refined life-cycle review process to guard against making commitments
    based on overly optimistic plans. He also stated that NASA now uses Formulation
    Agreements to document agreed-upon expectations between project managers and the
    Agency.

    The Chief Engineer acknowledged that internal and external funding instability impacts
    project management and stated that NASA has implemented a number of reviews and
    agreements to establish expectations with project managers to facilitate open discussion
    and early identification of impacts resulting from changes in funding due to internal
    factors. However, he stated that external changes to funding profiles are more difficult to
    control and the Agency advises project managers to account for continuing resolutions
    and notify stakeholders when external funding decisions are likely to result in negative
    outcomes. The Chief Engineer also agreed with the need for maturing and retaining an
    experienced workforce to lead NASA projects. He pointed out that NASA has been
    recognized for its project leadership training and other knowledge sharing initiatives and
    is targeting early career professionals in its recruitment program.



x                                                                            REPORT NO. IG-12-021
OVERVIEW



  We agree that these initiatives, if properly implemented, could help NASA mitigate the
  challenges we identified in this report. We also agree with the Chief Engineer that
  NASA’s culture of optimism is necessary for the Agency to accomplish the challenging
  tasks it undertakes.

  However, the Agency’s response did not address our primary conclusion regarding the
  need for strong leadership by the President, Congress, and the Agency to address these
  persistent challenges. Without such leadership, it will be difficult for NASA to
  effectively implement the initiatives the Agency has identified, much less overcome the
  long-standing challenges to meeting the cost, schedule, and performance goals of the
  Agency’s science and space exploration projects.

  The Agency’s comments in response to a draft of this report are reprinted in Appendix C.




REPORT NO. IG-12-021                                                                         xi
SEPTEMBER 27, 2012




                                                           CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 9

  RESULTS
      Challenges to Meeting Cost, Schedule, and Performance Goals
         NASA’s Culture of Optimism _________________________ 11
         Underestimating Technical Complexity ________________ 17
         Funding Instability ________________________________ 25
         Project Manager Development _______________________ 33
      Conclusion: Strong Leadership Required to Accomplish
        Meaningful Change ________________________________ 35

  APPENDIX A
      Scope and Methodology _______________________________ 39
      Review of Internal Controls ____________________________ 41
      Prior Coverage ______________________________________ 42

  APPENDIX B
      Interviews _________________________________________ 45

  APPENDIX C
      Management Comments ______________________________ 49

  APPENDIX D
      Report Distribution ___________________________________ 52




REPORT NO. IG-12-021
SEPTEMBER 27, 2012




                                                                        INTRODUCTION


Background

   If it’s been a while since our last failure, people who are looking to us to do great things
                          sometimes forget how hard this work is to do.
                                      – Former NASA Chief of Safety and Mission Assurance

  NASA is an organization with a unique mission that requires leadership, innovation, and
  creativity to achieve one-of-a-kind, first-of-their-kind technological and scientific
  advancements. Supported by investments of $470 billion since its creation over 50 years
  ago, the Agency has been at the forefront of space exploration and responsible for
  numerous scientific discoveries and technological innovations. For example, since its
  launch in 1990 the Hubble Space Telescope has helped scientists determine the age of the
  universe, identify quasars, and prove the existence of dark energy, and more than 6,000
  scientific articles have been published using data gathered by the telescope. Hubble’s
  planned successor, the James Webb Space Telescope (JWST), will study the birth and
  evolution of galaxies, while the Mars Science Laboratory (MSL) and its Curiosity rover,
  which landed on Mars on August 6, 2012, will assess whether the Red Planet is or has
  ever been able to support life.

  Unfortunately, in addition to their notable scientific accomplishments, many NASA
  spaceflight projects share another less positive attribute – they cost significantly more to
  complete and take longer to develop than originally promised. For example, in 1977
  NASA estimated that Hubble would launch in 1983 at a total cost of $200 million. In
  reality, it took the Agency another 2 years to complete the telescope at a cost of
  approximately $1.2 billion. More recently, MSL launched 2 years behind schedule,
  increasing the Project’s life-cycle costs by 56 percent, from $1.6 billion to approximately
  $2.5 billion. Similarly, although in 2009 NASA estimated that life-cycle costs for JWST
  would be $5.0 billion and the Project would launch in 2014, current projections put the
  life-cycle cost of the Project at $8.8 billion with a launch date of 2018.

  Roles and Responsibilities of Project Managers. NASA relies on a cadre of managers
  to lead its spaceflight projects. To do their jobs successfully, these managers must
  coordinate with a broad array of Agency officials, outside contractors, and internal and
  external oversight entities. In addition, they must exercise a high degree of technical,
  business, contracting, and management skills to assess the risks, feasibility, and technical
  requirements of their projects; develop operations and acquisition strategies; establish
  high-level requirements and success criteria; and prepare plans, budgets, and schedules.
  The likelihood that a project will meet its cost, schedule, and performance goals depends,
  in large part, on the ability of project managers to master these skills and successfully
  balance sometimes competing priorities.


REPORT NO. IG-12-021                                                                              1
                                                                                                     INTRODUCTION



    While these managers play a central role in ensuring that projects stay on course, they
    also operate within a larger Agency management structure that can significantly influence
    the success or failure of their projects. For example, the Administrator establishes the
    Agency’s strategic priorities and is responsible for the successful implementation of
    policies and programs that support those priorities. The Associate Administrators of the
    Aeronautics Research, Human Exploration and Operations, and Science Mission
    Directorates manage their Directorates’ program portfolios; are accountable for the
    success of the projects in that portfolio; and define, fund, evaluate, and oversee the
    implementation of those programs and projects to ensure they meet schedule and cost
    constraints.12 Finally, Center Directors provide resources, workforce, and facilities to
    support the programs and projects housed at their Centers.

    NASA’s Project Life Cycle. NASA policy provides overall direction for how project
    managers execute their responsibilities.13 The policy outlines NASA’s management
    structure; the life cycle for spaceflight projects; the roles and responsibilities of and the
    interrelationships between team members; and management requirements by life-cycle
    phase. NASA has also developed a handbook to aid project managers in implementing
    these high-level requirements. The handbook provides information on best practices to
    assist managers with problem solving and risk management in taking a project from
    concept and design to development and production.

    As shown in Figure 4, NASA divides the life cycle of its spaceflight projects into two
    major phases – formulation and implementation – which are further divided into phases
    A through F.14 Phases A and B consist of formulation and C through F implementation.
    This structure allows managers to assess the progress of their projects at key decision
    points (KDPs) in the process.15 Generally speaking, projects that stay within the
    parameters of their plans and other governing agreements proceed to the next phase.
    Those that deviate significantly from these plans and agreements undergo a Termination
    Review that can lead to cancellation.




    12
         NASA’s programs are generally composed of a number of individual projects (missions) that support a
         specific goal or objective. For example, the Mars Exploration Program currently consists of the Mars
         Odyssey, Mars Exploration Rovers, Mars Express, Mars Reconnaissance Orbiter, and MSL missions.
    13
         NASA Procedural Requirements (NPR) 7120.5E, “NASA Space Flight Program and Project
         Management Requirements,” August 14, 2012.
    14
         NASA defines formulation as the period in which Agency personnel identify how a project supports the
         Agency’s strategic goals; assess feasibility, technology, concepts, and risk; build teams; develop
         operations concepts and acquisition strategies; establish high-level requirements and success criteria;
         prepare plans, budgets, and schedules; and establish control systems to ensure performance to those plans
         and alignment with current Agency strategies. The implementation phase is the period in which
         personnel execute approved plans for the development and operation of the project and use control
         systems to ensure performance to those plans and continued alignment with the Agency’s strategic goals.
    15
         A KDP is defined as the point in time when the Decision Authority – the responsible official who
         provides approval – makes a decision on the readiness of the project to progress to the next life-cycle
         phase. KDPs serve as checkpoints or gates through which projects must pass.



2                                                                                           REPORT NO. IG-12-021
  INTRODUCTION



                                          Figure 4. NASA Life-Cycle Phases


                                                                                                                       End of
             Formulation                       Approval                        Implementation
                                                                                                                       Mission

                                                                             Phase D:
  Pre-                       Phase B:
             Phase A:                                          Phase C:       System         Phase E:
 Phase                      Preliminary      Proceed to                                                   Phase F:
            Concept and                                          Final       Assembly,      Operations                  Mission
   A:                        Design &      Implementation                                                  Close-
            Technology                                        Design and    Integration,       and                     Concluded
Concept                     Technology         Phase                                                        out
            Development                                       Fabrication    Test, and     Sustainment
Studies                     Completion
                                                                              Launch


                                 Preliminary    Key              Critical
                                 Design         Decision         Design
                                 Review         Point C          Review
                                 (PDR)          (KDP C)         (CDR)


      During formulation Phases A (Concept and Technology Development) and B
      (Preliminary Design and Technology Completion), projects develop and define
      requirements, cost and schedule projections, acquisition strategy, and project design and
      complete development of mission-critical or enabling technology. As needed, projects
      are required to demonstrate evidence of technology maturity and document the
      information in technology readiness assessment reports. Projects must also develop,
      document, and maintain a project management baseline that includes an integrated master
      schedule and baseline life-cycle cost estimate.16

      The formulation phase ends with a preliminary design review (PDR), during which
      project personnel are requested to demonstrate that the project’s preliminary design meets
      all system requirements with acceptable risk and within cost and schedule constraints and
      establish the basis for proceeding with detailed design. At the PDR, the project is
      required to present full baseline cost and schedules, as well as risk assessments,
      management systems, and metrics. In addition, a Standing Review Board conducts an
      independent assessment of the readiness of the project to proceed to implementation.17
      The formulation phase culminates in management approval to proceed to the next phase,
      which requires passage through KDP C where an assessment of the preliminary design
      and a determination of whether the project is sufficiently mature to proceed to Phase C is
      made. In addition, as part of the KDP C review process cost and schedule baselines are
      established against which the project is thereafter measured.

      16
           The management baseline is the integrated set of requirements, cost, schedule, and technical content that
           forms the foundation for project execution and reporting that is done as part of NASA’s performance
           assessment and governance process.
      17
           A Standing Review Board is composed of independent experts who provide assessments of the project’s
           technical and programmatic approach, risk posture, and progress against the project baseline and offer
           recommendations to improve performance or reduce risk.


   REPORT NO. IG-12-021                                                                                                 3
                                                                                                INTRODUCTION



    During Phase C, the project prepares its final design, fabricates test units that resemble
    the actual hardware, and tests those components. A second design review, the critical
    design review (CDR), occurs in the latter half of Phase C. The purpose of the CDR is to
    demonstrate that the design is sufficiently mature to proceed to full-scale fabrication,
    assembly, integration, and testing and that the technical effort is on track to meet
    performance requirements within identified cost and schedule constraints. After the
    CDR, a system integration review takes place during which the readiness of the project to
    start flight system assembly, test, and launch operations is assessed. Depending on the
    results of that review, the project may be approved to continue into Phase D, which
    includes system assembly, integration, test, and launch activities. Phase E consists of
    operations and sustainment, and Phase F is project closeout.

    Cost Increases and Schedule Delays. Cost increases and schedule delays on NASA
    projects are long-standing issues for the Agency. In 2004, the Congressional Budget
    Office compared the initial and revised budgets of 72 NASA projects between 1977 and
    2000.18 The initial budgets for these projects totaled $41.1 billion, while the revised
    budgets totaled $66.3 billion, a 61 percent increase that represented 10.6 percent of
    NASA’s total budget during those years.

    Since 2009, the Government Accountability Office (GAO) has made an annual
    assessment of the status of NASA’s major projects. Table 1 shows the average cost
    growth and launch delay of selected NASA projects as reported by GAO in each of its
    assessments.19

         Table 1. Average Cost Growth and Launch Delay of Major NASA Projects 2009–2012
                    Average Development
                        Cost Growth              Average Cost Growth              Average Launch Delay
         Year            (millions)                   (percent)                         (months)
          2009             $ 49.5                        13                                11
          2010            $121.1                         19                                15
          2011             $ 94.3                        15                                 8
         2012*            $314.8                         47                                11
     *
      Excluding JWST, the figures become $79 million, 15 percent, and 8 months, respectively.
    Source: NASA Office of Inspector General (OIG) analysis of GAO data

    According to GAO, actual average cost growth was even greater than indicated in
    Table 1 because these figures do not capture cost growth that occurred prior to the point
    at which NASA established formal cost and schedule baselines in response to a 2005


    18
         “A Budgetary Analysis of NASA’s New Vision for Space Exploration,” September 2004. Available at
         http://www.cbo.gov/sites/default/files/cbofiles/ftpdocs/57xx/doc5772/09-02-nasa.pdf (accessed
         August 24, 2012).
    19
         The major projects GAO selects to assess may change from year to year.



4                                                                                       REPORT NO. IG-12-021
INTRODUCTION



  statutory requirement.20 In addition to requiring establishment of cost and schedule
  baselines, the statute also required NASA to report to Congress when a project’s
  development cost is likely to exceed the baseline estimate by 15 percent or more or when
  a milestone is likely to slip by 6 months or more. GAO found that 13 projects for which
  NASA established baselines prior to 2009 experienced an average development cost
  growth of almost 55 percent, with a total increase in development costs of almost $2.5
  billion from their original baselines.

  In its 2012 assessment, GAO reported that the majority of the cost growth in NASA’s
  portfolio was attributable to JWST, with the other projects in the assessment experiencing
  relatively modest cost growth.21 Specifically, 14 of the 15 projects in the implementation
  phase at the time of GAO’s assessment experienced average development cost growth of
  $79 million (15 percent) and schedule growth of 8 months from their baselines. When
  JWST was included in this calculation, the averages increased to almost 47 percent
  ($314.8 million) and 11 months, respectively.

  Cost and schedule increases on large projects like JWST can have a cascading effect on
  NASA’s entire portfolio. For example, the cost growth and schedule delays associated
  with JWST and MSL, which together account for approximately 51 percent or $11.4
  billion of total life-cycle costs for the 15 projects in implementation included as part of
  GAO’s 2012 assessment, led the Agency to postpone the next large astrophysics project
  recommended by the National Research Council and may lead to cancellation and
  reconfiguration of the Agency’s other Mars exploration projects.

  The OIG, GAO, NASA, and others have repeatedly cited several fundamental and
  interrelated factors that contribute to poor cost, schedule, and performance outcomes in
  NASA projects. These factors include inaccurate cost estimates, failure to define
  requirements adequately, and underestimating the complexity and maturity of
  technology. In 2009, NASA consolidated the results of 13 reviews and studies performed
  by the Agency, GAO, and the Rand Corporation between 1973 and 2006 in an effort to
  determine the reasons for cost growth in its projects. The Agency’s analysis identified
  the 15 factors set forth in Table 2.




  20
       National Aeronautics and Space Administration Authorization Act of 2005, Pub.L.No.109-155,
       42 U.S.C. § 16613(b)(f)(4), “Baselines and Cost Controls.”
  21
       GAO, “NASA: Assessments of Selected Large-Scale Projects,” (GAO-12-207SP, March 1, 2012).



REPORT NO. IG-12-021                                                                                5
                                                                                       INTRODUCTION




                         Table 2. Reasons for Cost Growth in NASA Projects

                        Cost Growth Reasons                         1970s   1980s   1990s    2000s
    Inadequate Definitions Prior to Agency Budget Decision and to
                                                                     X       X        X           X
    External Commitments
    Optimistic Cost Estimates/Estimating Errors                      X       X        X           X
    Inability to Execute Initial Schedule Baseline                   X       X        X           X
    Inadequate Risk Assessments                                      X       X        X           X
    Higher Technical Complexity of Projects than Anticipated         X       X        X           X
    Changes in Scope (Design/Content)                                X       X        X           X
    Inadequate Assessment of Impacts of Schedule Changes on Cost             X        X           X
    Annual Funding Instability                                                        X           X
    Eroding In-House Technical Expertise                                              X           X
    Poor Tracking of Contractor Requirements Against Plans                            X           X
    Launch Vehicle                                                                    X
    Reserve Position Adequacy                                                X                    X
    Lack of Probabilistic Estimating                                         X                    X
    “Go As You Can Afford” Approach                                                               X
    Lack of Formal Document for Recording Key Technical,
                                                                                                  X
    Schedule, and Programmatic Assumptions
    Source: NASA Advisory Council Meeting: Report of Audit and Finance Committee, Kennedy Space
    Center, February 5, 2009.

    NASA’s Efforts to Improve Acquisition Outcomes. Over the years, NASA has taken a
    variety of steps to improve the cost and schedule performance of its projects. In 2006,
    NASA revised its acquisition policies to emphasize the need to gather knowledge on the
    technical and development feasibility of a project and associated cost and schedule
    parameters before making commitments to long-terms investments. In addition, NASA
    codified its Systems Engineering Handbook into a new systems engineering requirements
    document. Taken together, the revised policies require projects to incorporate key
    reviews and decision points that serve as gates through which projects must pass before
    moving to the next stage in their life cycle. That same year, NASA also implemented
    Earned Value Management (EVM), an integrated management control system for
    assessing, understanding, and quantifying the technical progress achieved with project
    dollars. Used correctly, EVM can provide project management with objective, accurate,
    and timely data to support effective decision making. A March 2008 study by NASA’s
    Science Mission Directorate found that projects using EVM experienced 19 percent




6                                                                                REPORT NO. IG-12-021
INTRODUCTION



  growth in development costs compared to 31 percent growth for projects that did not use
  this tool.22

  In 2007, the Agency implemented a management review process to monitor project
  performance including cost, schedule, and technical issues more effectively and took
  steps to strengthen the accuracy of its cost estimating. More recently, NASA
  implemented a new cost-estimating policy requiring a new analysis method, known as the
  Joint Cost and Schedule Confidence Level (JCL), that analyzes the probabilities that a
  project will be completed at a certain cost and within a certain schedule. It is intended to
  aid in project management and cost and schedule estimating by enabling the Agency to
  evaluate more accurately whether projects have an executable plan as they proceed into
  development. JCL considers all cost and schedule elements, incorporates and quantifies
  potential risks, assesses the impacts of cost and schedule to date, and addresses available
  annual resources to arrive at development cost and schedule estimates associated with
  various confidence levels. NASA policy requires that projects be budgeted at a level
  supporting a 70 percent probability that the project will be completed at or lower than
  estimated costs and on or before the projected schedule.23

  Although all of these initiatives are positive steps toward achieving improved project
  management, their cumulative effect on project performance is not yet entirely clear.24

  Changing National Space Policy. Many of NASA’s major projects are the product of
  policy goals established at the national level by the President and Congress.
  Consequently, throughout its history the Agency’s priorities have been subject to the
  vagaries of both domestic and international politics. For example, the Soviet Union’s
  1961 flight that put the first man in orbit around Earth spurred President Kennedy to
  challenge NASA to land a man on the moon by the end of the decade. This challenge
  and the resulting Apollo Program defined NASA’s early years. In January 1972,
  President Nixon approved development of the Space Shuttle Program, a decision that
  influenced American space exploration efforts for the next 40 years. In January 2004,
  President George W. Bush put into motion a multi-decade effort known as the
  Constellation Program that was to follow the Space Shuttle Program and enable human
  exploration beyond low Earth orbit.25 However, following significant cost and schedule
  overruns and an evaluation by a special committee, President Obama cancelled
  Constellation in February 2010.26 In its place, the President called for development of a
  22
       “SMD [Science Mission Directorate] Cost/Schedule Performance Study – Summary Overview,”
       March 2008, available at http://www.lpi.usra.edu/pss/presentations/200806/16bruno.pdf (accessed
       April 2, 2012).
  23
       NASA Policy Directive (NPD) 1000.5A, “Policy for NASA Acquisition” (Revalidated March 17, 2010).
  24
       We plan to conduct additional audit work in the future to evaluate the implementation and effectiveness
       of these efforts.
  25
       The major components of the Constellation Program were the Ares I Crew Launch Vehicle, Ares V
       Cargo Launch Vehicle, Orion Crew Exploration Vehicle, and Altair Lunar Lander.
  26
       Review of U.S. Human Spaceflight Plans Committee, “Seeking a Human Spaceflight Program Worthy of
       a Great Nation,” October 2009. Available at
       http://www.nasa.gov/pdf/396093main_HSF_Cmte_FinalReport.pdf (accessed June 20, 2012).


REPORT NO. IG-12-021                                                                                             7
                                                                                                    INTRODUCTION



    new heavy-lift rocket to be ready for construction by 2015 with manned missions to Mars
    by the mid-2030s. The President’s announcement generated extensive debate in
    Congress about NASA’s space exploration goals and the next generation of space
    vehicles required to meet those goals. Over the next few months, proposals varied widely
    from preserving Constellation to rebuilding from the ground up a new generation of
    spaceflight vehicles enabling human space exploration beyond low Earth orbit. In
    October 2010, the NASA Authorization Act of 2010 confirmed cancellation of the
    Constellation Program but retained a number of the Program’s components, including the
    Orion Multi-Purpose Crew Vehicle and the J-2X upper stage engine.

    Challenging Fiscal Environment. NASA manages its portfolio of projects in a
    challenging and uncertain fiscal environment. After reaching a high in the late 1960s,
    NASA’s budget has declined as a percentage of the overall Federal budget. As shown in
    Figure 5, fiscal year (FY) 1966 was the high-water mark for NASA when the Agency
    received $5.9 billion or 4.4 percent of the Federal budget. By comparison, NASA’s
    FY 2012 funding of $18.2 billion represents only 0.5 percent of the total Federal budget.
    Similarly, when adjusted for inflation the Agency’s annual funding has been on a nearly
    consistent downward trend for more than 20 years. As the President and the Congress
    work to reduce Federal spending and the country’s budget deficit, NASA is likely to face
    constrained funding levels for the foreseeable future.

                            Figure 5. NASA Budget as a Percentage of the Federal Budget

                   45,000                                                                          5.00%

                   40,000                                                                          4.50%

                   35,000                                                                          4.00%

                                                                                                   3.50%
                   30,000
                                                                                                   3.00%
                   25,000
       $ Bilions




                                                                                                           Percent

                                                                                                   2.50%
                   20,000
                                                                                                   2.00%
                   15,000
                                                                                                   1.50%
                   10,000                                                                          1.00%
                    5,000                                                                          0.50%

                       0                                                                           0.00%
                            2012*
                            2015*
                             1958
                             1961
                             1964
                             1967
                             1970
                             1973
                             1976
                             1979
                             1982
                             1985
                             1988
                             1991
                             1994
                             1997
                             2000
                             2003
                             2006
                             2009




                            NASA Budget Outlay, nominal              NASA Budget Outlay, 2011 dollars
                            % of Federal Outlay   *Budget estimate




8                                                                                          REPORT NO. IG-12-021
INTRODUCTION



Objectives

  Our purpose in conducting this review was to gain a better understanding of the major
  challenges NASA project managers face in carrying out their duties. The core of our
  fact-finding consisted of interviews of 85 individuals both within and outside of NASA,
  including former and current Administrators, Deputy Administrators, Associate
  Administrators, Center Directors, and project managers and staff in an attempt to identify
  the “root causes” of NASA’s long-standing struggle to meet project cost, schedule, and
  performance goals. We plan to conduct additional work in the future to examine more
  closely the issues we identified and offer specific recommendations for management
  action. See Appendix A for details of our scope and methodology, our review of internal
  controls, and a list of prior coverage. See Appendix B for a list of the 85 individuals we
  interviewed.




REPORT NO. IG-12-021                                                                           9
RESULTS




                    CHALLENGES TO MEETING COST, SCHEDULE, AND
                                          PERFORMANCE GOALS

          Multiple factors underlie NASA’s historical inability to meet project cost, schedule,
          and performance goals. However, based on our interviews with more than 80
          individuals involved in all levels of management and project development, we
          identified four factors that appear to present the greatest challenges to successful
          project outcomes. The first three are long-standing issues, while the fourth is of
          more recent origin:

             •   Culture of optimism.

             •   Underestimating technical complexity.

             •   Unstable funding.

             •   Project manager development.

          Below we examine each of these challenges in turn.


NASA’s Culture of Optimism Can Result in Unrealistic Projections

     NASA does things that have never been done before. We do things that normal people
        wouldn’t even try. We do things that are hard and we hire starry-eyed people.
                                                                      – NASA Project Manager

  It was clear from our interviews that a culture of optimism and a can-do spirit permeate
  all levels of NASA, from senior management to front-line engineers. Although this
  optimistic organizational culture is essential for realizing groundbreaking scientific
  achievement, it can also lead to unrealistic projections about what can be achieved within
  approved budgets and timeframes. In addition, this culture has manifested itself in a
  tendency to view the success of projects primarily in technical rather than cost and
  schedule terms. More specifically, NASA’s optimistic culture contributes to
  development of unrealistic plans and performance baselines that fail to account for all
  relevant risks.

  NASA’s Culture of Optimism Is Long Standing and Essential to Realizing
  Extraordinary Scientific Achievement. According to project managers, a culture of
  optimism is essential to overcoming the extraordinary technical challenges inherent in the
  development of unique first-of-their-kind space systems. For more than five decades,
  NASA programs have resulted in remarkable technological advances and scientific



REPORT NO. IG-12-021                                                                           11
                                                                                                          RESULTS



     discoveries. This legacy has fostered a can-do attitude and a culture of optimism about
     achieving successful outcomes that permeates all levels of the Agency.

     NASA’s culture of optimism originated with and has been driven by one of the Agency’s
     greatest achievements – landing the first human on the Moon (see Figure 6). NASA’s
     ability to overcome the technological and scientific obstacles to accomplish this feat has
                                                     become part of the Agency’s culture and
     Figure 6. “Buzz” Aldrin on the Moon beside      has helped foster a belief that NASA can
     seismic experiment with Lunar Excursion         do anything. In later years, this view was
     Module Eagle in the background.                 reinforced by missions like Voyager
                                                     (launched in 1977 and still operating at
                                                     the edges of our solar system), the Space
                                                     Shuttle, the International Space Station
                                                     (ISS), and the Hubble Space Telescope.
                                                     More recently, NASA projects have
                                                     produced evidence of what may have
                                                     once been habitable environments on
                                                     Mars and of the importance of dark
                                                     matter and dark energy, as well as
                                                     insights into the formation of black holes
                                                     and the structure of the universe from its
                                                     inception. Indeed, it was this can-do
                                                     attitude that enabled NASA to bring the
                                                     ailing Apollo 13 safely back to Earth and
                                                     find a way to fix Hubble’s mirror in
     Source: NASA                                    orbit.


     In short, the optimistic and focused national goals of the Apollo Program, coupled with
     the Program’s generous funding profile, set the foundation for an organizational culture
     that believes nothing is impossible despite significant technical hurdles and other
     challenges. Subsequent accomplishments and technological successes, at significantly
     greater costs than originally estimated, reaffirmed a mindset that project costs and
     adherence to schedule were secondary considerations to achieving operational success.

     Unrestrained Optimism Can Exacerbate Cost, Schedule, and Performance
     Problems. Although optimism encourages innovation, it may also prevent leaders from
     making critical assessments of requirements, budgets, and schedules to determine what a
     project can realistically accomplish within a set budget and timetable. For example,
     NASA initiated the MSL mission soon after the successful development and landing of
     the Mars Exploration Rovers (MERs) Spirit and Opportunity.27 Senior managers from
     the MER mission transitioned to MSL and managed the follow-on project under what
     they described as the “MER culture” of success. This attitude existed not only at the
     27
          Spirit and Opportunity were launched in June and July 2003, respectively, and landed on Mars in January
          2004.



12                                                                                       REPORT NO. IG-12-021
RESULTS



  project level but further up the supervisory chain at the program management level.
  Program officials told us that this attitude contributed to senior managers accepting the
  MSL Project’s optimistic cost and schedule estimates and placing less credence on
  independent assessments that suggested the Project would need additional funds and
  more time to overcome technical challenges. Ultimately, the MSL Project missed its first
  launch window in 2009 and experienced a 2-year launch delay, which significantly
  contributed to development costs increasing from $969 million to $1.77 billion and the
  life-cycle costs increasing from $1.6 billion to $2.5 billion.28

  From our discussions with senior NASA officials and project managers, we identified
  three related ways NASA’s optimistic culture contributes to cost and schedule
  challenges: (1) measures of success that do not include cost and schedule factors;
  (2) establishment of unrealistic cost and schedule baselines; and (3) the expectation that
  additional funding will be made available if a project runs “short.”

  Measures of Project Success Do Not Include Cost and Schedule Factors. The Agency’s
  long-standing culture of optimism has resulted in a mindset among NASA managers that
  emphasizes technological and operational success over cost and schedule fidelity. For
  example, when asked to define “project success,” nearly all the project managers we
  interviewed responded that a project was successful if it achieved its technical
  performance goals. No manager mentioned controlling cost and schedule growth as
  significant measures of success. Moreover, all described their projects as successful even
  though many had experienced adverse cost and schedule outcomes.

  This mindset has manifested itself in a lack of documented success criteria for cost and
  schedule performance in NASA projects. We reviewed seven project plans and found
  that while success criteria were clearly defined in terms of technical requirements, none
  contained any measures related to cost and schedule performance.29 For example:

         •   The project plan for the Landsat Data Continuity Mission, a satellite designed to
             gather global land data and imagery for agricultural, education, business, science,
             and government uses, includes 17 mission success objectives relating to the type
             of data to be acquired and the duration of the satellite’s mission life.

         •   The project plan for the Orbiting Carbon Observatory-2, a satellite designed to
             measure the amount of carbon dioxide in the atmosphere, measures success in
             terms of the frequency with which the satellite retrieves carbon dioxide estimates
             and the comparison of these estimates to other space-based and ground-based
             instruments.
  28
       Due to planetary alignment, the optimal launch window for a mission to Mars occurs every 26 months.
       MSL was scheduled to launch in a window between September and October 2009. However, in February
       2009, because of the late delivery of several critical components and instruments, NASA delayed the
       launch to November 2011.
  29
       We reviewed plans for the following projects: Landsat Data Continuity Mission (LDCM), JWST, Mars
       Atmosphere and Volatile Evolution, Orbiting Carbon Observatory-2, Soil Moisture Active Passive,
       MSL, and Deep Impact Discovery Project.



REPORT NO. IG-12-021                                                                                         13
                                                                                                           RESULTS



            •   The success criteria for the MSL Project includes the ability to land and navigate
                on Mars, assess the biological environment and geology of the landing region, and
                investigate aspects of the planet’s past habitability, as well as the Project’s ability
                to archive the acquired data within 6 months of receipt on Earth.

            •   The Soil Moisture Active Passive mission will collect soil moisture and
                freeze/thaw measurements of Earth via satellite to enable climate models that
                predict future trends in water resource availability. The project plan states that the
                mission will be considered 100 percent successful if it launches into a near-polar
                sun-synchronous orbit, provides global space-based measurements of soil
                moisture, and records and validates that data.

     To its credit, NASA has taken some steps to include cost and schedule factors in future
     missions’ definition of success. In response to a 2007 GAO report highlighting NASA’s
     lack of emphasis on cost controls and program outcomes, the Agency issued a Corrective
     Action Plan that established a definition of success for its portfolio of projects.
     Specifically, the Agency established that success would be defined as completing its
     portfolio of major development projects within 110 percent of the cost and schedule
     baseline and meeting Level 1 requirements for 90 percent of the major development
     projects.30,31 NASA is hoping to meet this criteria by FY 2013.

     However, NASA’s definition and stated goals have not yet filtered into the project
     management culture. Consistent with the information gleaned from our interviews, a July
     2011 study by The Aerospace Corporation found that mission success was the only
     criteria by which NASA project managers measured success.32 The draft report, which
     has not been formally issued, encouraged NASA to address this imbalance by
     incentivizing project managers to deliver projects on-cost and on-schedule. While
     conceding that mission success will always be the primary criteria by which NASA will
     be judged, the authors argued that if cost and schedule performance are important to
     NASA, then that ideal must be made part of the Agency’s culture. Ultimately, NASA
     and The Aerospace Corporation could not come to consensus on the recommendation due
     to concerns that providing incentives either as a reward or as punishment for adherence to
     cost and schedule metrics could negatively impact mission success.

     Establishment of Unrealistic Cost and Schedule Baselines. NASA’s culture of optimism
     appears to increase the difficulty of developing and maintaining realistic cost estimates.
     Many interviewees indicated that project managers and senior NASA leaders are often
     hesitant to admit they cannot achieve mission requirements within the funding profile
     provided. One area where this is especially prevalent is in the estimation of projects’
     30
          GAO, “NASA Plan for Improvement in the GAO High-Risk Area of Contract Management,” dated
          October 31, 2007, and updated through January 31, 2008.
     31
          A Level 1 requirement is a project’s fundamental and basic set of requirements levied by the Program or
          Headquarters on the project.
     32
          The Aerospace Corporation, “Explanation of Change (EoC) Cost Growth Study Final Results and
          Recommendations,” (Draft Report ATR-2011(5322)-1, July 1, 2011).



14                                                                                        REPORT NO. IG-12-021
RESULTS



  technical complexity. For example, NASA project managers are often overly optimistic
  about the effort required to mature critical technologies or obtain and modify heritage
  technologies – hardware, software, and systems developed for previous projects that are
  adapted for use on new projects – and underestimate the cost and schedule reserves
  needed to address known and unknown risks, optimistically assuming that most risks will
  not materialize. This can result in significant cost, schedule, and performance problems.
  As the National Resource Council noted in 2010:

             A project manager or principal investigator who is personally determined to control
             costs can be of great assistance in avoiding cost growth. People and organizations
             tend to optimize their behavior based on the environment in which they operate.
             Unfortunately, instead of motivating and rewarding vigilance in accurately predicting
             and controlling costs, the current system incentivizes overly optimistic expectations
             regarding cost and schedule. For example, competitive pressures encourage (overly)
             optimistic assessments of the cost and schedule impacts of addressing uncertainties
             and overcoming potential problems. As a result, initial cost estimates generally are
             quite optimistic, underestimating final costs by a sizable amount, and that optimism
             sometimes persists well into the development process.33

  The history of cost reserve estimates for the MSL Project helps illustrate this point.
  Between 2002 and 2004, an independent cost assessment team issued eight reports
  analyzing a variety of different scenarios. In four of the reports, the assessment team
  questioned the reasonableness of the Project’s 30 percent cost reserve, which was set in
  accordance with Jet Propulsion Laboratory (JPL) Project Guidelines, and indicated that a
  reserve level of 50 to 70 percent would be more prudent given the number of project
  participants, the complexity of the mission, the aggressive schedule, and the involvement
  of nuclear material. Similarly, another independent assessment conducted in 2006 as part
  of the Project’s PDR recommended a $105 million increase to reserves to achieve a cost
  confidence level of 70 percent.

  However, Project officials did not follow these recommendations and even cited the 30
  percent reserve level as a positive attribute at the confirmation review. It was not until
  CDR in 2007 that managers admitted reserves were critically low, discordant with the
  Project’s needs, and inadequate by $50–$100 million. NASA management subsequently
  increased the reserve levels and permitted the Project to pass CDR and move to the
  implementation phase while NASA’s internal assessment team indicated that there was
  very little chance it would meet the planned launch date. Indeed, in 2009 the MSL
  Project, having exhausted its budget and reserves, missed the launch window and was
  forced to set a new launch date more than 2 years later that increased Project life-cycle
  costs by $900 million. Similarly, the JWST Independent Comprehensive Review Panel
  cited inadequate reserves and a failure to phase the reserves into the project when needed
  as contributing factors to cost increases and schedule delays experienced by JWST.



  33
       National Resource Council, “Controlling Cost Growth of NASA Earth and Space Science Missions,”
       2010.



REPORT NO. IG-12-021                                                                                    15
                                                                                                            RESULTS



     Expectation of Additional Funding. Many project managers we spoke with mentioned
     the “Hubble Psychology” – an expectation among NASA personnel that projects that fail
     to meet initial cost and schedule goals will receive additional funding and that subsequent
     scientific and technological success will overshadow budgetary and schedule problems.34
     Within days of its 1990 launch, Hubble was sending out-of-focus pictures back to Earth
     due to a flaw in the telescope’s giant mirror. In a December 1993 repair mission,
     astronauts corrected the problem by adding a camera to the telescope. This and
     subsequent servicing missions extended Hubble’s operational life (see Figure 7), but also
     added billions to the overall cost of the project. Nevertheless, as many of the individuals
     we interviewed noted,
     Hubble is now general-      Figure 7. Space Shuttle Atlantis’ robotic arm lifts the refurbished
     ly viewed as a national     Hubble Space Telescope from its cargo bay on May 19, 2009.
     treasure and its initial
     cost and performance
     issues have largely
     been forgotten.35
     Based on the Hubble
     experience and that of
     other NASA projects,
     many interviewees
     expressed the belief
     that if a mission pro-
     vides good science
     data, any previous cost
     and schedule overages
     will be forgiven.
                                        Source: NASA

     To its credit, NASA has recently demonstrated an unwillingness to provide additional
     funds to allow an over budget project to proceed to implementation. The Gravity and
     Extreme Magnetism Small Explorer Project was intended to measure the polarization of
     X-rays emanating from black holes and neutron stars. Capped at $105 million in 2009, at
     confirmation review Project managers contended that they could complete the Project for
     $135 million. However, an independent cost estimate found that the Project was likely to
     cost $150 million and that its 2014 launch would be delayed due to development
     difficulties with its primary instrument. Consequently, in May 2012 NASA leadership
     made the decision to terminate the mission.



     34
          While not attributable to a particular source or individual, the term “Hubble Psychology” is well known
          and used extensively throughout NASA.
     35
          Hubble development was completed in 1985. However, because of the loss of Space Shuttle Challenger
          in January 1986, launch of the telescope was delayed until April 1990. Since then, five servicing
          missions have upgraded the telescope’s scientific instruments and operational systems, the most recent in
          2009 (see Figure 7).



16                                                                                         REPORT NO. IG-12-021
RESULTS



  Managing an Optimistic Culture. NASA’s optimistic organizational culture is an
  essential element to achieving the Agency’s highly complex missions. However, as
  discussed above, such a culture can also result in overly optimistic cost and schedule
  estimates and minimization of the importance of a project staying within cost and on
  schedule as measures of success. Nurturing NASA’s optimistic culture while tempering
  the effects of over optimism on budget fidelity requires Agency leadership at all levels to
  review project requirements, budgets, and schedules with a critical eye and reward
  project managers who demonstrate keen attention to and stewardship of NASA’s limited
  resources.


Underestimating Technical Complexity Increases Cost and
  Schedule Risk

      We should never attempt to perform system designs until the project requirements
      have been fully developed and understood. . . . Only after the requirements have
          been developed in full should the designers be turned on to design to that
                                  known set of requirements.
                                                          – Comment Received on OIG Blog

  Project managers we interviewed cited the technical complexity inherent in NASA
  projects as a major challenge to achieving cost and schedule goals. As many noted,
  predicting the problems a project may encounter when developing one-of-a-kind, first-of-
  their-kind technologies, instruments, and spacecraft, much less anticipating how much
  money will be needed to overcome those problems, presents extremely complex
  challenges. However, as discussed below, we believe NASA could take several actions
  to achieve more accurate cost estimates and help minimize cost growth in Agency
  projects.

  Unique and Complex Technologies. In our judgment, five factors explain the
  inherently uncertain nature of estimating costs for the type of space technologies NASA
  develops: (1) unique, first-of-their-kind technologies; (2) interdependent technologies
  and complex integration issues; (3) increased testing needs; (4) limited quantities; and
  (5) shrinking industrial base and reduced quality of parts. A discussion of each of these
  factors follows.

  Development of Unique, First-of-Their-Kind Technologies. For many non-NASA
  development efforts, historical data, cost models, lessons learned, and other information
  is readily available to help project managers estimate the effort that will be needed to
  develop necessary technologies. However, because NASA projects often involve
  technologies that are new and unique, project managers have significantly less
  information to draw upon in the planning and cost estimating stages of project
  development. This increases the complexity of developing accurate cost and schedule
  estimates for many NASA projects.



REPORT NO. IG-12-021                                                                            17
                                                                                                           RESULTS



     Interdependent Technologies and Complex Integration Issues. NASA projects often
     involve combining several technologies to accomplish novel missions. The complexity
     that may result from the interdependence of these technologies is often difficult to
     predict, and managers may consequently underestimate the effort required for successful
     integration.

     Increased Testing Needs. Unlike land-based systems, many NASA missions and their
     associated instruments function remotely in space. Consequently, if something goes
     wrong the Agency cannot access them easily or at all to attempt repair. As a result,
     NASA performs extensive testing at great expense prior to launch to reduce risk and
     increase the likelihood that its technologies and projects will work as designed.

     Limited Quantities. Because space systems are generally one-of-a-kind instruments,
     NASA cannot benefit from economies of scale.36 In other commercial and government
     development efforts, for example fighter aircraft, producing higher quantities of the
     product causes the average cost of each product unit to fall. However, because NASA
     typically develops unique solutions to complex space challenges, the Agency cannot
     benefit from such savings.

     Shrinking Industrial Base and Reduced Quality of Parts. Several project managers we
     spoke with told us they have observed a reduction in the availability and quality of
     contractor-supplied parts and instruments in recent years. They attributed this primarily
     to the overall consolidation of the space industry and the resulting reduction in
     competition. The managers explained that this decrease in quality has affected their
     ability to estimate project costs accurately because a part’s poor quality may not be
     evident until testing has begun, resulting in the need for costly rework or seeking out
     alternative part suppliers late in development.

     In addition to the Hubble example discussed previously, other examples illustrate
     NASA’s tendency to underestimate the costs and level of effort required to develop its
     projects:

            •   To meet the science goals of the JWST mission, NASA needed a mirror 6.5
                meters (21 feet 4 inches) in diameter that would work at -400 degrees Fahrenheit
                (see Figure 8). To protect the mirror from the sun and help it maintain this
                temperature, a sunshield composed of five membranes that could be folded and
                then unfurled to the size of a tennis court needed to be developed. In 2006, GAO
                reported that this technology and other associated cooling equipment and
                instrument development were immature.37 Subsequently, the development of
                these technologies was much more difficult and took significantly longer to
                mature than anticipated.

     36
          Economies of scale decrease cost per unit and increase efficiency as the number of units being produced
          increases.
     37
          GAO, “NASA’s James Webb Space Telescope: Knowledge-Based Acquisition Approach Key to
          Addressing Program Challenges,” (GAO-06-634, July 14, 2006)



18                                                                                        REPORT NO. IG-12-021
RESULTS



             Figure 8. Six of the segments that will make up the primary mirror on JWST
             are shown completing cryogenic testing at Marshall Space Flight Center.




             Source: NASA

         •   As we reported in June 2011, developmental testing for the National Polar-
             orbiting Operational Environmental Satellite System Preparatory Project
             identified technical issues and questions of workmanship that caused considerable
             retesting of several of the partner-provided instruments and directly contributed to
             the Project’s $304 million cost increase and 5-year schedule delay.38

         •   Because of the size and mission requirements of the MSL rover, project managers
             had to develop an innovative method of safely landing and powering the vehicle.
             Previous Mars rovers Spirit and Opportunity used parachutes and airbags for
             landing and solar panels and rechargeable lithium-ion batteries for their power
             systems. In contrast, the spacecraft carrying the MSL’s Curiosity rover first
             descended using a parachute and then rockets further slowed and guided the
             spacecraft before lowering the upright rover on a tether to the surface, much like a
             sky crane. Additionally, the rover has a radioisotope power system that generates
             electricity from the heat of plutonium’s radioactive decay, which greatly extends
             the life of the vehicle but was never before incorporated on a planetary rover.
             Furthermore, MSL project managers had to review and test titanium parts after
             OIG investigators found that a supplier falsely certified that the material complied
             with required specifications. This problem required management to audit more
             than 1,000 hardware items resulting in the identification of 127 suspicious parts
             for further examination. The added oversight and mitigation resulted in additional
             cost to the already over-budget project.


  38
       NASA OIG, “NASA’s Management of the NPOESS Preparatory Project,” (IG-11-018, June 2, 2011).



REPORT NO. IG-12-021                                                                                 19
                                                                                                              RESULTS



     Managing Technical Complexity and Cost Uncertainty. We acknowledge that space
     development projects are technically complex and their development costs are difficult to
     assess at the start of implementation when NASA managers are required to establish
     costs and schedule estimates. Nonetheless, in our judgment few projects should proceed
     to implementation unless requirements are well-defined and stable and the available
     resources – mature technologies, realistic schedule, and adequate funding – are set. In
     addition, the project’s critical technologies should be matured to the extent that a
     prototype that closely approximates form, fit, and function is demonstrated in a relevant
     environment.39 Finally, adequate funding should be available to meet the project’s
     requirements and account for its technical risks.

     Over the years, the OIG, GAO, and others have reported extensively about the cost and
     schedule risks associated with projects that proceed to implementation with unproven
     technologies, inadequate funding, or unstable requirements. Collectively, those reports
     have identified measures that could help achieve more accurate cost estimates and
     minimize cost growth in NASA’s projects, including: (1) maturing technologies prior to
     establishing baseline cost estimates; (2) appropriately funding management reserves to
     match technical risks; and (3) controlling changes to requirements. We discuss each of
     these issues in more detail below.

     Maturing Technologies Prior to Establishing Baseline Cost Estimates. One factor that
     hinders project managers’ ability to make accurate cost and schedule projections is the
     tendency for both internal and external stakeholders to underestimate the effort needed to
     complete a project – especially when establishing a project’s initial cost baseline – in
     order to gain support and funding. According to interviewees, this can result from
     deliberately understated contractor proposals, Agency estimates scrubbed to fit a
     perceived “approvable” budget profile, efforts of commercial lobbyists, and pressure
     from Congress. In an address to the American Astronautical Society Goddard
     Symposium in March 2008, former NASA Administrator Griffin described the problem
     this way:

                [T]here have been many instances where proponents of individual missions have
                downplayed the technical difficulty and risk of their individual mission, or grossly
                underestimated the cost and effort involved to solve the problems, in order to gain
                “new start” funds for [a] particular project. Everyone knows that, once started, any
                given mission is nearly impossible to cancel, so the goal becomes that of getting
                started, no matter what has to be said or done to accomplish it.

     According to some interviewees, the “buy-in” decision point – including the initial
     baseline cost estimate – should be commensurate with the level of project complexity.
     Specifically, interviewees noted that although it may be realistic for non-complex
     projects to establish a life-cycle cost estimate and schedule baseline at KDP C, complex
     projects may have too many unknowns to provide an accurate estimate at that point in the
     project’s life cycle. In addition, as previously noted, interviewees said NASA historically
     39
          For example, testing a representative model or prototype in a high-fidelity laboratory or in a simulated
          realistic environment.



20                                                                                           REPORT NO. IG-12-021
RESULTS



  exhibits a culture in which managers expect that additional funding will be provided for
  technically sound projects despite cost and schedule increases. As a result, some projects
  may proceed with unrealistic life-cycle cost estimates with the expectation that additional
  funds will be made available in the future.

  NASA’s Project Management Handbook discusses the poor outcomes associated with
  baseline cost estimates that do not match the technical complexity of a project:

            Unfortunately, on some projects both the cost and schedule are created and locked
            down before the technical scope is understood. This is backward and can lead to buy-
            in. Buy-in, in this context, is an overly optimistic estimate of cost and schedule used
            to try to ensure project initiation and funding. This type of buy-in could ultimately
            lead to either cancellation, because of insufficient resources, or the need for NASA to
            add resources to complete the project. The latter case will drain program resources
            and preclude or delay follow-on missions. This premature lockdown of cost and
            schedule prior to understanding the technical scope can also be imposed top-down by
            the program on the project. Neither is helpful.40

  The practice of moving forward prematurely is not exclusive to NASA’s large projects.
  Below are examples of both large and small projects with cost and schedule risks that
  moved into implementation with unproven technologies.

        •   A 2011 OIG report found that cost growth and schedule delays in the Advanced
            Radiation Instrumentation Project resulted from cost estimates and schedule
            milestones that were not supported by accurate and complete data.41 Specifically,
            when the ISS Program approved the Project, it did not have a firm proposal from
            the contractor responsible for building one of the replacement instruments. When
            NASA received the proposal 7 months later, the cost of the instrument had nearly
            doubled from the baseline projection. Only after the Project’s PDR did ISS
            Program management completely understand the scope of work required to
            deliver the replacement suite of radiation monitoring instruments, when the
            instruments realistically could be delivered, and how much they would cost. In
            the end, the suite of instruments was delivered 3 years late, cost $10 million more
            than the original $16 million estimate, and did not include all originally planned
            elements.

        •   MSL was allowed to proceed into the implementation phase with many key
            technologies, including motor actuators, avionics, and flight software, assessed as
            immature. The project required several design changes to address technical issues
            identified after the CDR of the propulsion system, including an electrical shorting
            of the pins on the avionics processor and a packaging issue that caused a
            disconnect between key components of the system. Because MSL officials
            identified the issue after the propulsion system was completed, the Project had to

  40
       NPR 7120.5, “NASA Space Flight Program and Project Management Handbook,” February 2010.
  41
       NASA OIG, “A Review of NASA’s Replacement of Radiation Monitoring Equipment on the
       International Space Station,” (IG-11-027, September 29, 2011).



REPORT NO. IG-12-021                                                                                  21
                                                                                                               RESULTS



                rebuild the propulsion system and adopt a new design, which in turn required
                rework and retesting of MSL’s cruise and descent stages.

            •   One of Glory’s main instruments – the Aerosol Polarimetry Sensor – was assessed
                as an immature critical technology at the PDR. Despite this fact, management
                approved the Project to proceed to the implementation phase. Subsequently, the
                Project experienced numerous issues with development of the sensor, resulting in
                more than a year’s delay in delivery and a cost increase of over $100 million.42

     The use of heritage technology frequently poses challenges for NASA projects. While
     the use of heritage technologies can reduce a project’s development costs, the complexity
     associated with required modifications and problems with availability of components
     used on past projects are often underestimated, which can negatively impact a project’s
     cost and schedule. Heritage technologies often require significant modification before
     they are suitable for integration into new projects. Moreover, suppliers of the heritage
     technology may have gone out of business or no longer be able to produce the needed
     technology because of personnel or other organizational changes. Below we discuss
     examples of projects that encountered difficulties using heritage technology.

            •   The goal of Dawn’s robotic spacecraft is to study the early solar system by
                investigating two of the largest remaining asteroids, Vesta and Ceres, which are
                located between Mars and
                Jupiter. The Dawn Project         Figure 9. Artist concept of Dawn using its ion
                                                  propulsion engine.
                planned to use the same ion
                propulsion system design
                successfully demonstrated by
                the Deep Space 1 mission,
                which operated between1998
                and 2001.43 However, the
                supplier that provided the ion
                thruster and the power
                processing units for Deep
                Space 1 no longer had the
                capability to produce the
                technology when it was
                needed for Dawn (see
                Figure 9). Consequently,
                                                  Source: NASA
                the cost of these components
                rose nearly 100 percent from


     42
          Glory was lost in March 2011 when the fairing protecting the satellite failed to separate from the
          Taurus XL launch vehicle during ascent, causing the spacecraft to fail to reach orbit.
     43
          NASA’s Dawn mission was launched in September 2007 to rendezvous and investigate the asteroids
          Vesta and Ceres. The spacecraft arrived at Vesta in July 2011 and is scheduled to arrive at Ceres in
          February 2015.



22                                                                                           REPORT NO. IG-12-021
RESULTS



             the original estimate and the flight hardware was delivered 8 months later than
             scheduled.

         •   The Kepler Project was the first mission designed to look specifically for Earth-
             sized planets in the “habitable zone” around other stars. To accomplish this
             mission, Kepler was designed with the largest camera ever launched into space.
             Although the Project’s technologies were considered heritage because they had
             flown on previous missions, adapting them to the requirements of the Kepler
             mission proved more difficult than anticipated and contributed to a $78 million
             cost overrun and 9-month schedule delay.

         •   The MSL Project relied on several heritage technologies that ultimately had to be
             redesigned, reengineered, or replaced for use on the Curiosity rover and
             spacecraft. For example, Project officials initially planned to use a heat shield
             composed of a lightweight material that had flown on previous missions.
             However, subsequent testing showed that this material was not suitable for MSL
             and the Project had to select a new, less mature technology, which resulted in
             approximately $30 million in cost growth and a 9-month delay in delivery of the
             heat shield.

  Appropriately Funding Management Reserves to Match Technical Risk. Reserves are
  contingency funding “allocated to and managed by the Program/Project Manager for the
  resolution of problems normally encountered to mitigate risks while ensuring compliance
  to the specified program/project scope.”44 In essence, the purpose of reserves is to cover
  the expense associated with work that managers did not plan for at the beginning of the
  project but that will almost inevitably be needed due to the complexities inherent in
  developing spaceflight projects. The reserve percentage varies from project to project,
  but historically had been limited to 30 percent of a project’s estimated overall
  development costs.45 Interviewees indicated that many projects begin their life cycle
  with inadequate reserves so that when unanticipated problems arise the projects face cost
  overruns and schedule disruptions.

  Some project managers we spoke with reported feeling constrained about setting reserve
  levels higher than 30 percent even when they believed that the complexity of the project
  required such action. For example, as previously discussed, MSL Project managers
  resisted raising reserve levels above the 30 percent mark set by JPL Project Guidelines
  despite several independent cost assessments that recommended reserve levels of 50 to
  70 percent of estimated development costs. In fact, NASA managers commented at the


  44
       2008 NASA Cost Estimating Handbook, available at http://www.nasa.gov/pdf/263676main_2008-
       NASA-Cost-Handbook-FINAL_v6.pdf (accessed August 20, 2012).
  45
       In 2007, reserve levels began to be based on the amount needed to achieve 70 percent cost confidence
       rather than a set percentage. This requirement was further refined in 2009 with the introduction of JCL
       policy, which required reserves, now referred to as Unallocated Future Expenses, adequate to achieve a
       cost and schedule confidence of 70 percent.



REPORT NO. IG-12-021                                                                                             23
                                                                                                       RESULTS



     Confirmation Review that establishing reserve levels above 50 percent would appear to
     be a vote of no confidence in the Project.46

     Controlling Changes to Requirements. Interviewees cited scope and requirements
     “creep” as another serious challenge to the ability of project managers to meet cost
     estimates. “Creep” occurs when engineers develop instrument functionality or robustness
     greater than the original requirements to increase a system’s technical capabilities. The
     additional work and associated costs can cause a project to exceed its life-cycle cost
     estimate. Although technology enhancements or increased technical capabilities may
     provide for a more robust mission, they often come at a significant cost. For example,
     the Science Mission Directorate added a new design requirement to the MSL at the
     Project’s CDR – the life-cycle stage at which projects should be demonstrating that all
     requirements have been met and the overall design is mature, stable, and ready for
     production. The requirement, a sample cache to collect rocks for a future sample return
     mission, was eventually dropped but not before adding $2 million to an already over-
     budget project.

     Similarly, changing
     requirements during           Figure 10. The Thermal Infrared Sensor arrives at the contractor for
                                   integration on the spacecraft in February 2012.
     development can
     have a negative
     impact on a project’s
     cost and schedule.
     For example, as we
     reported in
     September 2009,
     NASA removed but
     then reinstated after
     the contract had been
     signed a requirement
     for a legacy thermal
     infrared imaging
     capability on the
     Landsat Data
     Continuity Mission
     (see Figure 10).47
     This caused cost              Source: NASA
     increases and further
     delays to the project.


     46
          The Science Mission Directorate uses Confirmation Reviews or Confirmation Readiness Reviews to
          present project readiness status, PDR findings, and a recommendation for project progression to
          implementation.
     47
          NASA OIG, “The Landsat Program Is Not Meeting the Goals and Intent of the Land Remote Sensing
          Policy Act of 1992” (IG-09-021, September 2, 2009).



24                                                                                     REPORT NO. IG-12-021
RESULTS



Funding Instability Can Lead to Inefficient Management Practices

    NASA needs to set reasonable goals and prepare for the contingency that we will not
   receive the requested funding in the out years. We need to create a doable schedule for
                                  projects and then meet it.
                                                                         – Comment Received on OIG Blog

  Nearly 75 percent of the individuals we interviewed cited funding instability as among
  the most significant challenges to project management at NASA.48 Funding instability
  includes situations in which a project receives less money than planned or funds are
  disbursed on a schedule different than planned. Such instability can cause management
  to delay work and consequently development risks may be identified later in the project’s
  life cycle, which in turn can lead to cost increases and schedule delays. Interviewees
  noted that funding instability may result from presidential, congressional, or Agency-
  directed actions.

  Inefficient Management Practices. According to interviewees, funding instability can
  result in inefficient management practices that contribute to poor cost, schedule, and
  performance outcomes. In general, managers may be forced to invest time and effort
  re-planning tasks to fit unexpected funding profiles, deferring critical tasks to later phases
  of development, or de-scoping or discontinuing lower priority tasks to keep project costs
  within the revised budget profile. When it occurs in the early phases of a project,
  inadequate funding decreases management’s ability to identify and address key risks. For
  example, when planned funding does not materialize, project managers may defer
  development of critical technologies to a time when integration of those technologies
  may be more difficult or when the cost of material and labor may be greater. For
  example, the JWST Independent Cost Review Panel noted that deferred work on that
  Project cost two to three times more than original estimates. In addition, shifting tasks to
  later project phases may require mangers to sustain a workforce longer than originally
  planned or add shifts in an attempt to make up for lost time, both of which can lead to
  increased costs. Furthermore, as some tasks are contingent on completion of other
  deliverables, shifting tasks to later phases can have a cascading effect on a project’s
  master schedule resulting in even higher costs.

  As illustrated in Figure 11, funding instability can create a cycle of perpetual funding
  shortfalls by triggering schedule delays and program inefficiencies, which in turn lead to
  additional cost increases and greater risks.




  48
       In addition, nearly 18 percent of blog submissions collected for this report cited funding stability as a
       challenge to project management.



REPORT NO. IG-12-021                                                                                               25
                                                                                                        RESULTS



                                   Figure 11. Cycle of Funding Instability



                                                    Funding Gaps




                          Increased
                                                                           Schedule Delays/
                         Pressure on
                                                                               Program
                        Available NASA
                                                                             Inefficiencies
                           Budgets




                                                                      Cost and
                                    Need for                          Schedule
                                 Additional Funds                    Increases/
                                                                   Additional Risk


     Moreover, shortfalls in high-priority projects may lead to cuts in other projects when the
     Agency diverts funds from those projects to the higher-priority projects. For example,
     NASA leadership took funds from the budgets of other programs and projects to cover
     cost overruns and schedule delays in the Constellation Program, JWST, and MSL. This
     reactive approach exacerbates NASA’s funding challenges and puts further strains on
     budgets across the Agency.

     A comment we received on our blog captured the nature of this challenge:
            The single biggest challenge to managing a project at NASA is budget uncertainty. A
            project develops a budget to successfully accomplish the implementation of the
            project and, invariably, through the review process that budget is deemed
            unaffordable and [the] project is challenged to succeed with less. A typical approach
            is for the project to be cut in the near years with the cuts replenished in the out years
            causing the funding profile to be back loaded - the very thing it should not be. Starved
            for resource[s] early, the project is left to make inefficient decisions – take on
            technical risks or defer work - that will come home to roost later. On top of that is the
            annual uncertainty of budget approval - both in amount of budget and timing of
            approval – so at each fiscal year boundary the project is force[d] to consider changes
            to their plan that will impact efficient execution of their plan. After a few years the
            plan the project is executing on looks nothing like the plan – schedule and budget
            wise – the project embarked on at the beginning. Some of that change can be
            considered driven by internal events like technologies not panning out as planned,
            parts issues, etc. but the bulk of it is driven by external forces altering their budget.




26                                                                                       REPORT NO. IG-12-021
RESULTS



  Sources of Funding Instability. Interviewees noted that funding instability originates
  primarily from two sources: external decisions made by the President and Congress and
  internal decisions made within the Agency. Differing priorities advanced by different
  Administrations, the back-and-forth compromise inherent in the legislative process, and
  significant delays in enacting an annual budget affect the amounts of funding NASA
  receives each fiscal year and when those funds are available. Internally, funds may be
  disbursed to projects later than planned in a project’s life cycle (phasing), the amount of
  funds disbursed to the projects can be less than the budgeted amount, or projects may be
  required to make across-the-board reductions so that funds can be shifted to other
  troubled projects.

  External Decisions Made by the President and Congress. According to interviewees,
  shifting space policy priorities from the President and Congress and the vagaries of the
  annual appropriations process present major challenges to project management at
  NASA.49

  Shifting Space Policy Priorities. Like all Federal agencies, NASA’s priorities are subject
  to change based on the election cycle. However, because NASA projects are typically
  developed and executed over multiple years, the Agency is particularly sensitive to
  abrupt changes in its agenda. As the Advisory Committee on the Future of the U.S.
  Space Program noted:

             Clearly, any program that involves goals demanding 5, 10 or even 30 years for their
             achievement must enjoy a solid underpinning of broad, enduring support. The
             alternative is to suffer through a prolonged sequence of projects that are started,
             stopped, and restarted, only to be modified again and again.50

  This dilemma is no more apparent than in the twist and turns of NASA’s effort to develop
  a follow-on program to the Space Shuttle. In 2004, President George W. Bush directed
  NASA to retire the Shuttle and develop spacecraft and launch vehicles to return humans
  to the Moon by 2020, with the eventual goal of landing on Mars. However, the resulting
  Constellation Program experienced technical and budgetary issues that resulted in
  significant cost and schedule overruns. Shortly after President Obama took office in
  2009, a special committee found that NASA’s plans for human exploration beyond low
  Earth orbit were “not viable” under the existing funding profile and that major
  components of the Constellation Program would be significantly delayed. Based on the
  committee’s findings, President Obama cancelled Constellation and proposed a space
  policy that emphasized the use of commercial companies to provide transportation to low
  Earth orbit and stressed investment in technologies to enable future human exploration of


  49
       If an agency’s annual appropriation has not been enacted by the start of the fiscal year, Congress often
       passes a series of stop-gap funding bills known as “continuing resolutions” to fund agencies for several
       weeks or months, generally at the same level as the previous year. Continuing resolutions must be
       passed by both houses of Congress and signed by the President.
  50
       Report of the Advisory Committee on the Future of the U.S. Space Program, December 17, 1990,
       http://history.nasa.gov/augustine/racfup1.htm (accessed August 20, 2012).



REPORT NO. IG-12-021                                                                                              27
                                                                                           RESULTS



     space beyond Earth’s orbit. The policy did not include plans for NASA to develop a
     heavy-lift rocket in the near term.

     Some members of Congress         Figure 12. The Orion Multi-Purpose Crew Vehicle being
     disagreed with the               assembled and tested at a Lockheed Martin's facility in
     President’s proposal and         Colorado.
     inserted language in an
     appropriation bill that
     prevented NASA from
     terminating Constellation-
     related contracts without
     congressional approval.
     Congress and the President
     reached a compromise in
     October 2010 with the
     enactment of an Authoriza-
     tion Act that gave NASA the
     go-ahead to terminate
     Constellation but preserved
     some of the Program’s major
     components in the form of a
     heavy-lift architecture and a    Source: NASA
     multi-purpose crew vehicle
     (see Figure 12) to take astro-
     nauts beyond low Earth orbit.

     Even after enactment of this legislation, the Administration and Congress continued to
     debate the relative funding levels and priority that should be given to the heavy-lift
     program versus NASA’s efforts to develop a commercial space transportation capability.
     For example, NASA’s 2012 appropriation contained $406 million to develop a
     commercial crew transportation capability, less than half the $850 million the Agency
     had requested. As a result, NASA revised its commercial crew acquisition strategy and
     announced that there would be a 2-year delay in the operational deployment of the
     capability.

     Continuing Resolutions. Since its creation in 1959, NASA has received its annual
     appropriation at the start of the new fiscal year only seven times (see Figure 13). Most
     years the Agency has operated under weeks- or months-long continuing resolutions that
     generally set funding at the prior year’s level.




28                                                                          REPORT NO. IG-12-021
RESULTS



                        Figure 13. Enactment of NASA Appropriations




  According to interviewees, starting the fiscal year without an approved budget can have
  both immediate and long-term repercussions for NASA projects. First, when a project
  that was counting on increased funding to accomplish planned tasks is held to the
  previous year’s funding levels, work may be delayed, which can affect the project’s
  ability to stay on cost and schedule.

  Second, continuing resolutions may carry forward language from previous years’
  appropriations that limit the Agency’s ability to make necessary program changes. For
  example, as previously discussed, a series of continuing resolutions in FY 2011
  perpetuated a restriction in NASA’s 2010 appropriations law that prevented the Agency
  from cancelling the Constellation Program or terminating related contracts. In a January
  2011 letter to Congress, the OIG noted that due to this restriction NASA was spending
  $215 million on Constellation projects that the Agency would otherwise have considered
  cancelling or significantly scaling back.

  Third, when operating under continuing resolutions NASA cannot begin new projects. In
  December 2010 testimony before the Senate Committee on Commerce, Science and
  Transportation, NASA’s Chief Financial Officer discussed the challenges NASA faced
  while operating under a continuing resolution as it attempted to set a new path following




REPORT NO. IG-12-021                                                                          29
                                                                                                         RESULTS



     cancellation of the Constellation Program.51 In addition, she noted that NASA and the
     Department of Energy could not fund the restart of Plutonium-238 production and
     identified projects in the Chief Technologist’s Office and the Aeronautics Research
     Mission Directorate whose schedules were negatively impacted by continuing resolution
     limitations.52

     Internal Decisions Made Within the Agency. While external factors contribute to
     funding instability, according to many interviewees internal Agency decisions also play
     an important role. Within the confines set by the Agency’s annual appropriation laws,
     NASA managers decide when and how resources are dispensed. Agency decisions to
     withhold or delay funding from certain projects often force project managers to push key
     project tasks to the future, which can lead to schedule delays and cost increases.

     Receiving Less Funding than Requested. If a project receives less money than expected,
     managers must adapt to the more restrictive funding profile and re-plan work. This may
     mean moving tasks – such as maturing critical technologies and reducing other risks –
     into the future. As previously discussed, delaying such tasks may mean that project
     personnel do not identify significant technical and development challenges until later in
     the project’s life cycle, which can lead to cost and schedule increases.

     Kepler is an example of a project that suffered cost increases and schedule delays due to
     internal NASA funding decisions. NASA management cut $35 million from the Kepler
     Project’s FY 2005 budget, forcing the cessation of significant work, interrupting the
     overall flow and scheduling for staff and production, and requiring a renegotiation of
     contracts. This 1-year funding shortfall contributed to an overall 20-month delay in the
     Project’s schedule and about $169 million in cost growth. Furthermore, to accommodate
     these increases NASA took money from the Wide-Field Infrared Survey Explorer
     Project, which caused cost increases and schedule delays in that Project – an effect
     discussed in further detail below.

     In addition to receiving an adequate overall amount of funding, projects are also
     dependent on receiving funding at the right times during the project’s life cycle. If
     funding profiles are not synchronized with the required work effort, projects can suffer
     cost growth. Specifically, predictable phasing and receipt of funds can help managers
     direct projects more effectively by optimizing staff schedules, enabling better
     management of funds to cover obligations, and enhancing the ability to track remaining
     margins and reserves more accurately.



     51
          “Statement of Elizabeth M. Robinson, Chief Financial Officer, National Aeronautics and Space
          Administration, before the Committee on Commerce, Science and Transportation, United States Senate,”
          December 1, 2010. Available at
          http://www.nasa.gov/pdf/503001main_NASA%20testimony%20for%20SCST%20hearing%20on%2012
          -1%20FINAL%20(11-30-10).pdf (accessed August 20, 2012).
     52
          Plutonium-238 is used as a fuel to power electrical systems on NASA missions when solar power is not
          practical, such as for the MSL or missions to the outer planets.



30                                                                                      REPORT NO. IG-12-021
RESULTS



  Conversely, unpredictable phasing and receipt of funds can lead to inefficiencies. As
  previously noted, unstable funding may make it difficult for a project to obtain sufficient
  resources to address technological issues in the early project phases. Furthermore, to
  maintain continued operations with limited funding, project managers are sometimes
  forced to shift tasks to later project phases, which may mask cost impacts and increase
  risk.

  For example, an unstable funding stream Figure 14. Test of Orion’s parachute assembly
  has extended the development schedule       system following release from an Air Force C-17
  of the Capsule Parachute Assembly           cargo plane on February 29, 2012.
  System Project associated with the
  Orion space capsule (see Figure 14).
  The Project’s FY 2011–FY 2013 test
  plan included high altitude parachute
  deployment testing to validate models
  and parachute loads. However, because
  the adjusted FY 2012 budget could not
  support these tests, they had to be
  deferred and replaced with lower
  altitude parachute deployment tests.
  Although the lower altitude tests were
  necessary, this change in test sequencing
  means that the Project will need to
  repeat several of the lower altitude tests
  once the high altitude tests are
  completed. Although it is difficult to
  determine at this point the effect this
  will have on cost, it is clear that the
  Project lost the efficiency of performing   Source: NASA
  the tests in the preferred sequence and
  that managers will have to repeat some testing later in the development cycle.

  Across-the-Board Cuts to Help Troubled High-Priority Projects. Interviewees stated that
  when highly visible flagship missions like the Constellation Program or JWST
  experience cost growth, NASA leadership often takes funds from the budgets of other
  missions to cover those increased costs. This not only makes it difficult for project
  managers to manage their projects, but also has a ripple effect that increases the difficulty
  of managing the Agency’s overall portfolio. A former NASA official commented that
  paying for overruns on poorly run projects by cutting back or delaying projects that
  stayed within their budgets effectively penalizes the projects that performed well from a
  budget perspective.

  For example, while still in the formulation phase NASA reduced the Global Precipitation
  Measurement (GPM) Project’s budget by approximately $270 million from what was
  planned for FYs 2005 through 2008 to accomplish other goals in the President’s Vision



REPORT NO. IG-12-021                                                                              31
                                                                                                           RESULTS



     for Space Exploration.53,54 As illustrated in Table 3, as a result of these funding cuts the
     acquisition cycle for GPM increased, which in turn caused a 3-year launch delay and cost
     growth in excess of 50 percent for one of the Project’s primary instruments.

              Table 3: GPM Budget and Launch Date Changes Due to Budget Reductions
                                       (dollars in millions)
             Program
                           FY 2004 President’s Final Approved
           Operating Plan                                        Estimated Launch Date
                           Budget Submission        FY Funding
               Year
             FY 2005             $44.2                  $29.1           June 2010
             FY 2006             $99.3                  $24.7        December 2012
             FY 2007             $155.9                 $28.8           June 2013
             FY 2008             $143.8                 $89.7           June 2013
           FY 2005–2008
                                 $443.2                $172.3      3-year launch delay
               Total


     Similarly, in FY 2012 NASA moved $156 million from other projects within the Science
     Mission Directorate and from the Cross-Agency Support account to cover significant life-
     cycle cost increases in the JWST Project.55 Other missions, such as the Wide-Field
     Infrared Survey Telescope, have been postponed to make funding available for JWST.56
     In another example, NASA announced in 2012 that it was pulling out of an agreement
     with the European Space Agency on two future Mars missions and planned to reevaluate
     its Mars exploration strategy to accommodate a more restricted funding profile.

     Managing Funding Instability. Whatever its origin, lack of stable funding creates
     inefficiencies and makes it more difficult for project managers to effectively manage the
     cost, schedule, and performance risks of their projects. However, funding instability has
     been a long-standing feature of the Federal budget and Agency processes, and given the
     current constrained fiscal environment is likely to become even more common in the
     future. Furthermore, interviewees noted that the Agency itself sometimes underestimates
     the cost and schedule needed to complete a project in order to gain initial support and
     funding.
     53
          The Vision for Space Exploration was a plan announced in 2004 by President Bush in the aftermath of
          the Space Shuttle Columbia disaster. Under the plan, NASA returned the Space Shuttles to flight to
          complete construction of the International Space Station, retired the Space Shuttle Program, and then
          began developing the next generation of crew transportation vehicles for exploration of the Moon and
          Mars.
     54
          NASA initiated the GPM mission in 2001 to build upon the success of the Tropical Rainfall Measuring
          Mission and provide more accurate measurements of global precipitation. The GPM Project has
          undergone changes in scope and in October 2011, due to instrument development issues NASA re-
          planned the mission with a launch in June 2014.
     55
          The total amount was split evenly between the Science Mission Directorate and Cross-Agency Support.
          NASA’s Cross-Agency Support funds the operation and administration of Agency-wide services such as
          human capital management, security, and maintenance of real property assets that cannot be directly
          aligned to a specific program or project requirement.
     56
          The Wide-Field Infrared Survey Telescope is a NASA observatory designed to settle essential questions
          in both exoplanet and dark energy research.



32                                                                                        REPORT NO. IG-12-021
RESULTS



  Given these issues, we believe that NASA management should increase efforts to
  determine the extent to which funding instability impacts NASA projects and to clarify
  the cause and effect relationship between funding instability and project cost increases,
  schedule delays, and performance problems. In our judgment, squarely addressing these
  issues would facilitate development of effective risk mitigation plans for managing fiscal
  disruptions in NASA projects. In the absence of effective risk mitigation plans, unstable
  funding will likely continue to be a disruptive feature of project management.


Project Manager Development Opportunities Are Limited

                         NASA does too few development programs to get people
                                the acquisition experience they need.
                                                                       – Comment Received on OIG Blog

  Interviewees identified a number of emerging issues that could affect NASA’s ability to
  manage its projects in the future effectively. First, they stated that the limited number of
  small and mid-size projects in NASA’s current portfolio allows too few opportunities for
  Agency personnel to gain experience managing a project’s cost, schedule, and technical
  performance efforts. For example, Explorer and Discovery missions provide less
  experienced project managers the opportunity to lead smaller, lower risk, cost-capped
  missions.57 However, the Agency has sponsored fewer of these missions and spaced
  them farther apart than originally planned. Second, the interviewees expressed concern
  that an increased reliance on contractors to design and build projects has led to a decline
  in Agency personnel with development experience. Finally, interviewees stated that
  NASA engineers are primarily operating as overseers of work performed by contractors
  rather than gaining experience building instruments and spacecraft in-house. As a result,
  interviewees fear NASA will have an insufficient number of experienced project
  managers in the future to effectively manage the Agency’s high-priority projects.

  Project Management Development. Agency officials described the role of project
  manager as one of the most difficult jobs at NASA. One summarized the needed skill set
  as requiring the aptitude of a politician and the experience, discipline, and insight to
  know when to ask those with more experience for help. Interviewees cited attributes
  such as technical expertise, leadership skills, interpersonal skills, integrity, experience, an
  understanding of the budget process, and both a programmatic and institutional
  knowledge base as essential elements for a project manager. Additionally, Agency
  officials said project managers must have a good balance of cost, schedule, and technical
  knowledge to make informed decisions when these priorities are in conflict.


  57
       Explorer missions are small to medium-sized science missions costing up to $180 million, including
       launch vehicle costs, that are capable of being built, tested, and launched in a relatively short time
       interval. Discovery missions are planetary science missions with total costs not to exceed $425 million,
       excluding launch vehicle costs.



REPORT NO. IG-12-021                                                                                              33
                                                                                                       RESULTS



     We found that most of NASA’s current project managers are seasoned professionals:
     80 percent of the project managers interviewed had over 20 years of project management
     experience and 78 percent were formally certified as project managers. Most project
     managers and senior officials we spoke with commented that experience and on-the-job
     training more than formal training are key attributes to enabling personnel to manage the
     cost, schedule, and performance goals of a NASA project successfully. One project
     manager noted that “taking classes will give you the tools, but where you really learn is
     listening to guys – men and women – talk about their experiences, and how they
     overcame their issues; what worked and what didn’t.” Project managers also commented
     on the value of mentoring, noting that it was the most important part of their professional
     development. Eighty-three percent of the project managers we interviewed said they
     were mentored either through NASA’s formal mentoring program or informally as they
     progressed through their careers.

     Reduced Number of Small Missions. Interviewees expressed concern that as the
     number of large flagship missions has increased over the years, NASA no longer has
     enough small missions to provide a training ground for new project managers. In 2006
     the National Research Council reported on this issue, stating that NASA’s imbalance of
     small and large science projects would have significant impacts on the ability of the
     Agency to meet its science mission goals.58

     Project managers said the decline in the number of small development projects deprives
     NASA of an important pipeline to train new and rising project managers. Specifically,
     managers described NASA’s small projects as invaluable training grounds for developing
     management skills and learning the key elements of project management, such as
     understanding and managing cost, schedule, and performance elements and making
     appropriate trade-offs among these elements when necessary. For example, a project
     manager for JWST began his career with NASA in 1979 serving as a team member on
     the Hubble Space Telescope Project. After Hubble, he became the project manager for
     the Solar Radiation and Climate Experiment and later the project manager for the Landsat
     Data Continuity Mission prior to becoming the project manager for JWST.59 Although
     project managers receive training and project management certification, interviewees
     raised a concern that without these smaller projects to develop essential project
     management skills NASA managers will not be adequately equipped to effectively
     manage larger and more complex projects in the future.

     Loss of In-House Development Personnel. Interviewees also expressed concern about
     a lack of personnel with development experience. Some expressed the view that as
     NASA has increasingly relied on contractors to support project development, the
     Agency’s in-house technical capabilities have declined. To this point, a project manager
     at Kennedy Space Center noted that there were people with development experience on

     58
          National Research Council, “An Assessment of Balance in NASA’s Science Programs,” 2006.
     59
          The Solar Radiation and Climate Experiment, launched on January 25, 2003, provides measurements of
          incoming X-ray, ultraviolet, visible, near-infrared, and total solar radiation.



34                                                                                     REPORT NO. IG-12-021
RESULTS



  Apollo who transitioned to the Shuttle Program, but after 30 years of Shuttle operations
  there is nobody with development experience left at the Agency to work on the next
  generation of spaceflight vehicles.

  In addition, interviewees indicated that the skills necessary to manage a project during its
  formulation and development are very different from the skills needed to manage an
  operational project. Several Center Directors noted that it is a common practice to
  change managers when a project transitions from formulation to implementation.

  Interviewees also expressed concern that because NASA contracts out the majority of its
  hardware and software development efforts to private industry, NASA engineers spend
  most of their time overseeing contractor efforts rather than building space flight
  components and systems themselves. While much of the Agency’s hardware and
  software development has always been contracted to private industry, interviewees
  expressed the opinion that the proportion of work being performed by private industry is
  becoming increasingly unbalanced. These interviewees believe that as a result NASA
  engineers have limited opportunities to gain practical hands-on experience.

  Finally, some interviewees stated they fear that NASA will not be able to attract and
  retain recent graduates or experienced engineers who are seeking opportunities to design
  and build hardware and software and integrate systems. Instead, these individuals will
  choose positions in private industry, and as experienced engineers retire, NASA will lose
  this core capability.


Conclusion: Strong Leadership Required to Accomplish
  Meaningful Change

  Over the years, NASA has made significant achievements exploring space, helping
  understand Earth’s environment, and conducting fundamental research in aeronautics
  disciplines. However, consistently managing the Agency’s science and space exploration
  projects to meet cost, schedule, and performance goals remains elusive. Given the
  anticipated funding challenges likely for all Federal agencies in the years ahead, changes
  to the way NASA develops and manages its projects are imperative. At the same time,
  the Agency is undergoing considerable changes in mission focus, with the end of the
  Space Shuttle Program and the first steps on a new path toward human space exploration.
  Collectively, these factors both necessitate and provide an opportunity for the Agency to
  reset itself and take positive steps toward meaningful change in the way its projects are
  developed and managed.

  To its credit, NASA has taken several steps in the last few years aimed at curbing cost
  growth and schedule delays. For example, the Agency has implemented new policies
  requiring probabilistic cost and schedule analysis that produces a Joint Cost and Schedule
  Confidence Level (JCL) to assist managers with cost and schedule estimating while
  enabling the Agency to evaluate more accurately whether projects have an executable



REPORT NO. IG-12-021                                                                             35
                                                                                                            RESULTS



     plan as they proceed into implementation. NASA believes that this focus on probabilistic
     analysis has helped projects such as the Gravity Recovery and Interior Laboratory, Juno,
     and the Mars Atmosphere and Volatile Evolution meet cost and schedule goals.60
     Furthermore, in response to a 2007 GAO report highlighting NASA’s lack of emphasis
     on cost controls and program outcomes, the Agency issued a Corrective Action Plan that
     established a definition of success that includes completing all development projects
     within 110 percent of the cost and schedule baseline and meeting Level 1 requirements
     for 90 percent of the major development projects in its portfolio.61,62 NASA is hoping to
     achieve the Corrective Action Plan’s criteria for success by FY 2013 by implementing
     the policies and processes on new projects while tracking and reporting the measures for
     existing projects.63

     Moreover, NASA’s new program and project management policy requires that project
     plans document baseline and threshold values for the performance metrics to be achieved
     at each key decision point (KDP) and mission success criteria associated with the
     program-level requirements that, if not met, trigger consideration of a Termination
     Review.64 Further, project plans are required to document how the project will
     periodically report cost and schedule performance and provide a mitigation and
     corrective action plan in the event the project exceeds development cost estimates.
     Recently, NASA seems to be holding project managers more accountable for meeting
     cost cap agreements as evidenced by its decision in May 2012 to cancel the Gravity and
     Extreme Magnetism Small Explorer mission because development costs were likely to
     exceed the project’s agreed-upon budget.

     In our judgment, meeting the challenges outlined in this report can only be realized
     through a “unity of effort” that includes strong, consistent, and sustained leadership by
     the President, Congress, and NASA management. Clear and consistent leadership from
     the President and Congress is an essential first step toward ensuring that project managers
     are positioned to complete projects within cost, schedule, and performance estimates.
     Articulating a clear, unified, and sustaining vision for the Agency and providing the
     necessary resources to execute that vision is a critical cornerstone of success.

     For their part, NASA leaders must temper the Agency’s historic culture of optimism by
     requiring realistic cost and schedule estimates, well-defined and stable requirements, and
     60
          The Gravity Recovery and Interior Laboratory mission launched on September 10, 2011, to study the
          Moon’s interior. Juno launched on August 5, 2011, to investigate the structure and history of Jupiter and
          is scheduled to arrive at the planet in July 2016. The Mars Atmosphere and Volatile Evolution mission is
          scheduled to launch in late 2013 to investigate the Martian atmosphere.
     61
          GAO, “NASA Plan for Improvement in the GAO High-Risk Area of Contract Management,” dated
          October 31, 2007, and updated through January 31, 2008.
     62
          A Level 1 requirement is a project’s fundamental and basic set of requirements levied by the Program or
          Headquarters on the project.
     63
          NASA’s current set of major development projects were all underway prior to implementation of the
          Corrective Action Plan. These projects will gradually be completed (NASA’s typical timeline for
          development is 4 years) and replaced with projects that will be fully subject to the Plan.
     64
          NPR 7120.5E, “NASA Space Flight Program and Project Management Requirements,” August 14, 2012.



36                                                                                         REPORT NO. IG-12-021
RESULTS



  mature technologies early in project development. In addition, they must ensure that
  funding is adequate and properly phased and that funding instability is identified as a risk
  and accounted for in risk mitigation strategies. Finally, they must be willing to take
  remedial action – up to and including termination – when these critical project elements
  are not present.

  Although technological innovation and mission success as defined by scientific
  advancement and discovery are central to NASA’s core existence, an appropriate balance
  needs to be struck that also recognizes the importance of meeting project cost and
  schedule goals. Accordingly, we believe that NASA needs to find ways to reward
  managers for good stewardship of NASA’s resources as enthusiastically as it does for
  successful technological achievements. Likewise, NASA leadership should hold
  managers appropriately accountable for mismanagement of resources. With renewed
  focus on and appropriate recognition of technical, cost, and schedule risks and rewards,
  NASA project managers will be better positioned to meet the performance goals expected
  by Congress and the U.S. taxpayer.


Management’s Comments and Evaluation of Management’s
 Comments

  Management’s Comments. The Chief Engineer generally concurred with the
  challenges we outlined and stated that the Agency has implemented a number of
  performance improvement actions. Specifically, the Chief Engineer pointed to an
  increased management focus during the formulation phase, the application of joint
  confidence levels, and a refined life-cycle review process to guard against making
  commitments based on overly optimistic plans. He also stated that NASA now uses
  Formulation Agreements to document agreed-upon expectations between project
  managers and the Agency.

  The Chief Engineer acknowledged that internal and external funding instability impacts
  project management and stated that NASA has implemented a number of reviews and
  agreements to establish expectations with project managers to facilitate open discussion
  and early identification of impacts resulting from changes in funding due to internal
  factors. However, he stated that external changes to funding profiles are more difficult to
  control and the Agency advises project managers to account for continuing resolutions
  and notify stakeholders when external funding decisions are likely to result in negative
  outcomes. The Chief Engineer also agreed with the need for maturing and retaining an
  experienced workforce to lead NASA projects. He pointed out that NASA has been
  recognized for its project leadership training and other knowledge sharing initiatives and
  is targeting early career professionals in its recruitment program.

  Evaluation of Management’s Comments. We agree that these initiatives, if properly
  implemented, could help NASA mitigate the challenges we identified in this report. We
  also agree with the Chief Engineer that NASA’s culture of optimism is necessary for the


REPORT NO. IG-12-021                                                                             37
                                                                                        RESULTS



     Agency to accomplish the challenging tasks it undertakes. However, the Agency’s
     response did not address our primary conclusion regarding the need for strong leadership
     by the President, Congress, and the Agency to address these persistent challenges.
     Without such leadership, it will be difficult for NASA to effectively implement the
     initiatives the Agency has identified much less overcome the long-standing challenges to
     meeting the cost, schedule, and performance goals of the Agency’s science and space
     exploration projects.




38                                                                        REPORT NO. IG-12-021
APPENDIXES




                                                                          APPENDIX A


Scope and Methodology

  We performed this review from February 2011 through August 2012 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  We conducted interviews across multiple levels of current and former NASA
  management and two parties external to NASA in order to collect opinions and attitudes
  about NASA project management practices and to identify project management practices
  and challenges that contribute to ongoing cost overruns, schedule delays, and
  performance shortfalls. In addition, we reviewed project plans and project management
  criteria to determine compliance with project success criteria, and internal controls as
  they related to the overall audit objective.

  For the audit’s survey phase, we conducted structured interviews of four levels of project
  management (project manager, deputy project manager, deputy project manager for
  resources, and head technical representative) on selected projects. The projects were
  selected judgmentally according to geographical location and recommendations from
  NASA Headquarters:

      •   Global Precipitation Measurement, Goddard Space Flight Center

      •   Gravity Recovery and Interior Laboratory, Jet Propulsion Laboratory (JPL)

      •   Landsat Data Continuity Mission, Goddard

  For the audit phase, our approach changed to interviewing only project managers because
  we found in the survey phase that responses between the four levels of project
  management generally were consistent. The change in our approach allowed the team to
  obtain more interviews of a greater number of project managers. Project managers were
  chosen by statistical sampling from the six NASA development Centers:

      •   Goddard Space Flight Center

      •   Jet Propulsion Laboratory

      •   Johnson Space Center


REPORT NO. IG-12-021                                                                           39
                                                                                       APPENDIX A



        •   Kennedy Space Center

        •   Marshall Space Flight Center

        •   Stennis Space Center

     The sample universe consisted of 129 former and current NASA project managers,
     regardless of certification. We developed the universe of 129 project managers from lists
     provided by each of the NASA development centers, which we reconciled against the list
     provided by Headquarters to determine accuracy. For selecting project managers for
     interview, we used the attribute sample design with the method of selection being simple
     random sample. Our sample size was determined by using Winstats 1.0 and the universe
     of 129 project managers with an estimated attribute error rate of 10 percent and a desired
     precision or standard error rate of 5 percent. As a result, Winstats 1.0 projected a sample
     size of 41 project managers based on an 80 percent confidence level, with an estimated
     mean of 10 percent and estimated 30 percent standard deviation.

     In addition, we interviewed the Administrator, Deputy Administrator, Associate
     Administrators, Center Directors, a former NASA Administrator, former senior NASA
     staff, and external parties. Overall, we interviewed 85 personnel. For a list of
     interviewees, see Appendix B.

     From these interviews, we identified four common themes related to NASA project
     management challenges, as discussed in the report:

        •   Optimistic organizational culture.

        •   Technical complexity of NASA projects.

        •   Unstable funding.

        •   Project manager development.

     During the course of the audit, we also solicited input from the greater NASA workforce
     via a blog. We received a total of 687 responses via the blog: 243 direct responses, 390
     “thumbs up” (like or agree) responses, and 54 “thumbs down” (dislike or disagree)
     responses to the posted comments. Comments received via the blog were consistent with
     the comments received during interviews with the 41 project managers.

     Use of Computer-Processed Data. In order to identify the universe of project managers
     for this audit, we assessed the reliability of computer-processed data by comparing lists
     of project managers from Headquarters and six NASA Centers. We also analyzed
     Internet generated blog responses via
     http://wwwl.nasa.gov/offices/oig/agencyinput/index.html from September 21, 2011,
     through October 20, 2011. The blog was monitored by OIG personnel for appropriate
     content and duplicate responses. Although we did not test the general or application


40                                                                          REPORT NO. IG-12-021
APPENDIX A



  controls of any of these systems, we compared results and monitored the data, to the
  extent possible, to determine that the data was valid and reliable to support our objectives
  and conclusions.


Review of Internal Controls

  We reviewed NASA policies and procedures related to project management to determine
  NASA’s internal controls for project managers’ responsibilities for monitoring and
  oversight of cost, schedule, and performance requirements. We found that NASA
  Procedural Requirements require projects to have quantifiable and measurable
  performance metrics and to document the success criteria that, if not met, trigger
  consideration of a Termination Review. We found that NASA policy supports technical
  performance success criteria. However, Agency policy does not provide mission success
  criteria that holds projects accountable for cost and schedule performance. In addition,
  project plans reviewed supported that mission success is defined in terms of technical
  specifications only. Specific internal controls reviewed included:

      •   NASA Procedural Requirements (NPR) 7120.5D, “Space Flight Program and
          Project Management Requirements,” March 6, 2007

      •   NASA Interim Directive 7120-97, “NASA Space Flight Program and Project
          Management Requirements,” September 28, 2011, for NPR 7120.5D

      •   NPR 7120.5E, “NASA Space Flight Program and Project Management
          Requirements,” August 14, 2012

      •   NPD 1000.5, “Policy for NASA Acquisition,” Revalidated March 17, 2010

      •   NASA’s GAO High-Risk Corrective Action Plan Executive Summary,
          September 26, 2008

  Project plans reviewed for mission success criteria:

      •   Deep Impact Discovery Project

      •   James Webb Space Telescope

      •   Landsat Data Continuity Mission

      •   Mars Atmosphere and Volatile Evolution

      •   Mars Science Laboratory

      •   Orbiting Carbon Observatory–2

      •   Soil Moisture Active Passive


REPORT NO. IG-12-021                                                                             41
                                                                                    APPENDIX A



     In addition, for the survey phase we reviewed NASA’s Procurement Management
     Review Reports (formerly Procurement Management Surveys) website by Center and
     year. We reviewed Management Review Reports for Goddard (calendar years 2007 and
     2009) and JPL (calendar years 2005 and 2008) and found no reviews pertaining to
     project management practices of the Global Precipitation Measurement, Landsat Data
     Continuity Mission, or the Gravity Recovery and Interior Laboratory Projects.


Prior Coverage

     The NASA OIG has issued seven reports and GAO has issued 12 reports, listed below,
     related to project management practices. The reports describe significant challenges
     project managers face regarding cost overruns, schedule delays, and ineffective
     management practices of large-scale projects. Two of the GAO reports identified NASA
     and Department of Defense cultural systemic weaknesses in their acquisition processes
     and cost growth in agency projects In addition, we reviewed five reports by other
     entities, such as a Mishap Investigation Board, that we found of particular significance
     regarding project management practices. Unrestricted NASA and GAO reports can be
     accessed at http://oig.nasa.gov and http://www.gao.gov.

     NASA Office of Inspector General

     “A Review of NASA’s Replacement of Radiation Monitoring Equipment on the
     International Space Station” (IG-11-027, September 29, 2011)

     “NASA’s Challenges Certifying and Acquiring Commercial Crew Transportation
     Services” (IG-11-022, June 30, 2011)

     “NASA’s Management of the Mars Science Laboratory Project” (IG-11-019, June 8,
     2011)

     “NASA’s Management of the NPOESS Preparatory Project” (IG-11-018, June 2, 2011)

     “Review of NASA’s Tracking and Data Relay Satellite System” (IG-10-023,
     September 21, 2010)

     “The Landsat Program Is Not Meeting the Goals and Intent of the Land Remote Sensing
     Policy Act of 1992” (IG-09-021, September 2, 2009)

     “Final Memorandum on Audit of NASA’s Global Precipitation Measurement Project”
     (IG-08-016-R, March 31, 2008)




42                                                                        REPORT NO. IG-12-021
APPENDIX A



  Government Accountability Office

  “NASA: Assessments of Selected Large-Scale Projects” (GAO-12-207SP, March 1,
  2012)

  “NASA: Assessments of Selected Large-Scale Projects” (GAO-11-239SP, March 3,
  2011)

  “NASA: Assessments of Selected Large-Scale Projects” (GAO-10-227SP, February 1,
  2010)

  “NASA: Assessments of Selected Large-Scale Projects” (GAO-09-306SP, March 2,
  2009)

  “High-Risk Series: An Update” (GAO-11-278, February 2011)

  “NASA: Projects Need More Disciplined Oversight and Management to Address Key
  Challenges” (GAO-09-436T, March 5, 2009)

  “High-Risk Series: An Update” (GAO-07-310, January 2007)

  “NASA’s James Webb Space Telescope: Knowledge-Based Acquisition Approach Key
  to Addressing Program Challenges,” (GAO-06-634, July 14, 2006)

  “Best Practices: Better Support of Weapon System Program Managers Needed to
  Improve Outcomes” (GAO-06-110, November 2005)

  “NASA: Lack of Disciplined Cost-Estimating Processes Hinders Effective Program
  Management” (GAO-04-642, May 2004)

  “NASA Program Costs: Space Missions Require Substantially More Funding Than
  Initially Estimated” (GAO/NSIAD-93-97, December 1992)

  “Weapons Acquisition: A Rare Opportunity for Lasting Change” (GAO/NSIAD-93-15,
  December 1992)

  Other

  The Aerospace Corporation: “Explanation of Change (EoC) Cost Growth Study Final
  Results and Recommendations,” Aerospace Report No. ATR-2011(5322)-1, July 1, 2011
  (draft report not publicly available)

  National Resource Council, “Controlling Cost Growth of NASA Earth and Space Science
  Missions,” 2010, available at http://www.nap.edu/catalog.php?record_id=12946
  (accessed August 26, 2012)




REPORT NO. IG-12-021                                                                    43
                                                                                  APPENDIX A



     Other (continued)

     The Casani Report: “James Webb Space Telescope (JWST) Independent Comprehensive
     Review Panel (ICRP),” October 29, 2010, available at
     http://www.nasa.gov/pdf/499224main_JWST-ICRP_Report-FINAL.pdf (accessed
     August 20, 2012)

     The Congressional Budget Office, “A Budgetary Analysis of NASA’s New Vision for
     Space Exploration,” September 2004. Available at
     http://www.cbo.gov/sites/default/files/cbofiles/ftpdocs/57xx/doc5772/09-02-nasa.pdf
     (accessed August 26, 2012)

     Mars Climate Orbiter Mishap Investigation Board: “Report on Project Management in
     NASA,” March 13, 2000, available at
     http://science.ksc.nasa.gov/mars/msp98/misc/MCO_MIB_Report.pdf (accessed
     August 20, 2012)




44                                                                      REPORT NO. IG-12-021
APPENDIX B




                                                                                 INTERVIEWS

  The lists below contain the names of those people we interviewed for this audit. The
  positions cited are those held by the interviewees at the time of our interviews. Their
  positions or titles may have since changed.

NASA Headquarters Staff
  Interviewee                               Position
  Charles Bolden                            Administrator
  Lori Garver                               Deputy Administrator
  Christopher Scolese                       Associate Administrator
  Jaiwon Shin                               Associate Administrator for Aeronautics
                                            Research
  Douglas Cooke                             Associate Administrator for Exploration Systems
  William Gerstenmaier                      Associate Administrator for Space Operations
  Michelle Gates                            Aerospace Technician, Engineer Program
                                            Management
  Lynn Cline                                Deputy Associate Administrator for Space
                                            Operations
  Kathleen Gallagher                        Operations Research Analyst, Space Operations
  Edward Weiler                             Associate Administrator for Science
  Charles Gay                               Deputy Associate Administrator for Science
  Michael Luther                            Deputy Associate Administrator for Science
  Dan Woods                                 Director, Strategic Integrations and Management
  Michael Ryschkewitsch                     Chief Engineer
  Gregory Robinson                          Deputy Chief Engineer



Center Management
  Interviewee                 Position                            Center
  Robert Strain               Center Director                     Goddard
   Arthur (Rick) Obenschain   Deputy Center Director              Goddard
   Kelly Ferrell              Chief of Staff                      Goddard
  Michael Coats               Center Director                     Johnson
  Charles Elachi              Center Director                     JPL
  Robert Cabana               Center Director                     Kennedy
  Robert Lightfoot            Center Director                     Marshall
  Eugene Trinh                Center Director                     NASA Management Office (NMO)
   Norman Schutzberger        NMO Oversight                       NMO
  Patrick Scheuermann         Center Director                     Stennis
   Ken Human                  Associate Center Director           Stennis




REPORT NO. IG-12-021                                                                             45
                                                                                                       APPENDIX B



Former NASA Management
     Interviewee          Current Position                              Former NASA Position
                          Eminent Scholar and Professor
     Michael Griffin      Mechanical and Aerospace Engineering          Administrator
                          University of Alabama in Huntsville
                          Rear Admiral and Visiting Professor
                                                                        Associate Administrator for Exploration
     Craig Steidle        Aerospace Engineering
                                                                        Systems
                          United States Naval Academy
     Alan Stern           Director, Florida Space Institute             Associate Administrator for Science


External to NASA
     Interviewee                              Position
                                              Professor Emeritus of Political Science and International Affairs at
     John Logsdon                             George Washington University’s Elliott School of International
                                              Affairs
     Marcia Smith                             President of Space and Technology Policy Group, LLC



Initial Interviews (by Project)
     For initial interviews, we chose three projects and discussions were held with the project
     manager, deputy project manager, deputy project manager for resources, and the
     technical lead. See Appendix A for Scope and Methodology.

     Interviewee                Position                                      Project                Center
                                                                              Global Precipitation
     Ardeshir Azarbarzin        Project Manager                                                      Goddard
                                                                              Measurement (GPM)
     Candace Carlisle*          Deputy Project Manager                        GPM                    Goddard
     Jacquelyn Fiora            Deputy Project Manager for Resources          GPM                    Goddard
     David Ward                 Mission Systems Engineer                      GPM                    Goddard
                                                                              Gravity Recovery
     David Lehman               Project Manager                               and Interior           JPL
                                                                              Laboratory (GRAIL)
     Tom Hoffman                Deputy Project Manager                        GRAIL                  JPL
     Marjorie Raymond           Project Business Manager                      GRAIL                  JPL
     Humphrey Price             Project Systems Engineer                      GRAIL                  JPL
                                                                              Landsat Data
     Phillip Sabelhaus          Project Manager                               Continuity Mission     Goddard
                                                                              (LDCM)
     William Ochs               Project Manager (former)                      LDCM                   Goddard
     Del Jenstrom               Deputy Project Manager                        LDCM                   Goddard
     Lorrie Eakin               Deputy Project Manager for Resources          LDCM                   Goddard
     Evan Webb                  Lead Mission Systems Engineer                 LDCM                   Goddard
     *Interviewee also selected as part of the statistical sample of project managers.




46                                                                                        REPORT NO. IG-12-021
APPENDIX B



Project Manager Interviews (Statistical Sample)
  After initial project interviews were conducted (see “Initial Interviews”), we determined
  for a better representation of Agency Project Management we should interview project
  managers at the six NASA development centers: Goddard (including Wallops), Johnson,
  JPL, Kennedy, Marshall, and Stennis. The statistical sample identified 41 project
  managers for interviews. See Appendix A for Scope and Methodology.

  Interviewee           Position                 Project                                   Center
  Preston Burch         Associate Director       Joint Polar Satellite System (JPSS)       Goddard
                                                 Global Precipitation Measurement
  Candace Carlisle      Assistant Engineer                                                 Goddard
                                                 (GPM)
                        Supervisor Assistant –
  David Carter          Engineer Program         Ground Network                            Goddard
                        Management
  Frank Cepollina       Associate Director       Satellite Servicing Capabilities Office   Goddard
  Nicholas                                       Explorers and Heliophysics Project
                        Associate Director                                                 Goddard
  Chrissotimos                                   Division
                        Deputy Associate
  Elizabeth Citrin                               Joint Polar Satellite System (JPSS)       Goddard
                        Director
                        Supervisor Assistant –
                                                 Explorations and Space
  Roger Clason          Engineer Program                                                   Goddard
                                                 Communication Project
                        Management
                        Assistant – Engineer
  John Durning                                   James Webb Space Telescope (JWST)         Goddard
                        Program Management
                        Supervisor Assistant –
  Bryan Fafaul          Engineer Program         GLORY                                     Goddard
                        Management
                        Supervisor Assistant –
                                                 Wide-Field Infrared Survey Telescope
  Kevin Grady           Engineer Program                                                   Goddard
                                                 (WFIRST)
                        Management
                        Supervisor Assistant –
                                                 Explorers and Heliophysics Project
  David Mitchell        Engineer Program                                                   Goddard
                                                 Division (MAVEN)
                        Management
  Robin Krause          Deputy Project Manager   GOES-R Ground                             Goddard
  Richard Pickering     Deputy Program Manager   GOES-R                                    Goddard
                        Supervisor Assistant –
                                                 Space Network Ground Segment
  Albert Vernacchio     Engineer Program                                                   Goddard
                                                 Sustainment (SGSS)
                        Management
                        Assistant Launch and
                                                 Explorations and Space
  Jeffrey Volosin       Flight Operations                                                  Goddard
                                                 Communication Project
                        Manager
                                                 Earth Science Mission Operations
  Wynn Watson           Project Manager                                                    Goddard
                                                 (ESMO)
                                                 Crew Exploration Vehicle (CEV)
  Christopher Johnson   Project Manager                                                    Johnson
                                                 Parachute Assembly System
  Kathleen Laurini      Project Manager          Altair Lunar Lander                       Johnson
  James Lewis           Project Manager          Low Impact Docking System                 Johnson
                                                 Space Shuttle Program Flight
  Daryl Peltier         Project Manager                                                    Johnson
                                                 Software
  John Shannon          Project Manager          Space Shuttle Program                     Johnson




REPORT NO. IG-12-021                                                                                 47
                                                                                         APPENDIX B



                                                     NASA Integrated Enterprise
     Dan Swint             Project Manager           Management, Aircraft Management    Johnson
                                                     Module
     Ralph Basilio         Project Manager           Orbiting Carbon Observatory II     JPL
     John Callas           Project Manager           Mars Exploration Rover             JPL
     Kent Kellogg          Project Manager           Soil Moisture Active and Passive   JPL
                                                     EPOXI (Deep Impact) and Stardust
     Timothy Larson        Project Manager                                              JPL
                                                     Next
     Gaylon McSmith        Project Manager           Mars Odyssey                       JPL
     Glenn Shirtliffe      Project Manager           Jason-1                            JPL
     Peter Theisinger      Project Manager           Mars Science Lab                   JPL
     Philip Varghese       Project Manager           Mars Reconnaissance Orbiter        JPL
                                                     Jason-3 and Ocean Surface
     Parag Vaze            Project Manager                                              JPL
                                                     Topography Mission (Jason-2)
     Charles Gambaro       Project Manager           Vehicle Assembly Building          Kennedy
     Larry Schultz         Program Manager           Ares/SLS Mobile Launcher           Kennedy
     Dennon Clardy         Mission Manager           Discovery New Frontiers            Marshall
                           Ares Upper Stage Engine
     Michael Kynard                                  Ares/Space Launch System (SLS)     Marshall
                           Element Manager
     Jim Reuter            Project Manager           Ares/Space Launch System (SLS)     Marshall
     Jody Singer           Deputy Program Manager    Space Launch System (SLS)          Marshall
                                                     Office of Safety and Mission
     Freddie Douglas III   Project Manager                                              Stennis
                                                     Assurance
     David Liberto         Project Manager           AJ-26/RS-68 Liaison Role           Stennis
                                                     Range and Mission Management
     Jay Pittman           Chief                                                        Wallops
                                                     Office
                           Assistant Launch and      Range and Mission Management
     Ronald Walsh                                                                       Wallops
                           Flight Operations         Office




48                                                                             REPORT NO. IG-12-021
APPENDIX C




                       MANAGEMENT COMMENTS




REPORT NO. IG-12-021                         49
              APPENDIX C




50   REPORT NO. IG-12-021
APPENDIX C




REPORT NO. IG-12-021   51
                                                                               APPENDIX D




                                                        REPORT DISTRIBUTION

National Aeronautics and Space Administration
     Administrator
     Deputy Administrator
     Associate Administrator
     Chief of Staff
     Chief Engineer
     Chief Financial Officer
     Associate Administrator for Aeronautics Research
     Associate Administrator for Human Exploration and Operations
     Associate Administrator for Science
     NASA Advisory Council’s Audit, Finance, and Analysis Committee
     Director, Goddard Space Flight Center
     Director, Jet Propulsion Laboratory
     Director, Johnson Space Center
     Director, Kennedy Space Center
     Acting Director, Marshall Space Flight Center
     Director, NASA Management Office
     Director, Stennis Space Center

Non-NASA Organizations and Individuals
     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member
     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Organization, Efficiency, and Financial Management
     House Committee on Science, Space, and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics


52                                                                    REPORT NO. IG-12-021
Major Contributors to the Report:
   Jim Morrison, Assistant Inspector General for Audits
   Ridge Bowman, Director, Space Operations Directorate
   Raymond Tolomeo, Director, Science and Aeronautics Research Directorate
   Diane Choma, Project Manager
   Stephen Siu, Project Manager
   Theresa Becker, Procurement Analyst, Team Lead
   Gina Davenport-Brazeau, Auditor
   Gerardo Saucedo, Management Analyst
   Gary Weishaar, Management Analyst
   Tiffany Xu, Auditor
   John Womack, Investigator
   Arnold Pettis, Data Mining Specialist/Statistician




REPORT NO. IG-12-021                                                         53
                                                                                 SEPTEMBER 27, 2012
                                                                        REPORT No. IG-12-021




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY12/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
